<html>
<title> - THE DEPARTMENT OF THE INTERIOR'S BUDGET REQUEST FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-465]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-465

  THE DEPARTMENT OF THE INTERIOR'S BUDGET REQUEST FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2016





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
           
           
           
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-968                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MAZIE K. HIRONO, Hawaii
ROB PORTMAN, Ohio                    ANGUS S. KING, JR., Maine
JOHN HOEVEN, North Dakota            ELIZABETH WARREN, Massachusetts
LAMAR ALEXANDER, Tennessee
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Christopher Kearney, Budget Analyst and Senior Professional Staff 
                                 Member
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
         David Brooks, Democratic Professional General Counsel
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria. Ranking Member and a U.S. Senator from 
  Washington.....................................................     4

                                WITNESS

Jewell, Hon. Sally, Secretary, U.S. Department of the Interior...     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     4
Cribley, Bud:
    Letter dated December 15, 2015 from the U.S. Department of 
      the Interior, Bureau of Land Management to Mr. Brent 
      Goodrum, State of Alaska Department of Natural Resources...    48
Goodrum, Brent:
    Letter dated July 1, 2015 from the State of Alaska Department 
      of Natural Resources to Mr. Bud Cribley, Bureau of Land 
      Management, Alaska State Office............................    40
    Letter dated January 13, 2016 from the State of Alaska 
      Department of Natural Resources to Mr. Bud Cribley, Bureau 
      of Land Management, Alaska State Office....................    53
Jennings, Mr. Gerald:
    Letter dated October 16, 2015 from the State of Alaska 
      Department of Natural Resources to Mr. Michael Schoder, 
      Bureau of Land Management, Alaska State Office.............    46
Jewell, Hon. Sally:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Letter to Senator Lisa Murkowski dated July 15, 2015.........   207
    Responses to Questions for the Record........................   214
Myers, Dr. Mark:
    Letter dated September 18, 2015 from the State of Alaska 
      Department of Natural Resources to Mr. Bud Cribley, Bureau 
      of Land Management, Alaska State Office....................    38
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Conference of State Historic Preservation Officers:
    Statement for the Record.....................................   276
U.S. Army Corps of Engineers, Alaska District:
    King Cove-Cold Bay: Assessment of Non-Road Alternatives dated 
      June 18, 2015..............................................    89

 
  THE DEPARTMENT OF THE INTERIOR'S BUDGET REQUEST FOR FISCAL YEAR 2017

                              ----------                              


                       Tuesday, February 23, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. The Committee will come to order.
    Welcome, Secretary Jewell, as well as other members of the 
Department of the Interior (DOI). It is good to have you with 
us today. We are meeting this morning to review the budget 
request for the Department of the Interior for Fiscal Year 
2017.
    Secretary Jewell, welcome back to the Committee. You and I 
have had many discussions over the years since your tenure at 
Interior, and you know that I have expressed my concerns about 
how Interior has approached some of the issues in Alaska as 
well as the rest of the nation over the past eight years. But 
as you and I have discussed, we need to figure out how we can 
find those opportunities to work together. I think there is 
agreement that there are plenty of areas where it should be 
possible to find that agreement, but I have to be very frank 
with where we are this morning when we look at the budget in 
front of us. It looks like, again, a rocky start to the final 
year of this Administration.
    Some of the things, and I will include this as part of my 
questions to you this morning, but the first one that strikes 
me is Interior's proposal to assist Alaskans impacted by 
climate change through this new resiliency fund. It appears to 
be modeled after a provision of a bill that I wrote, the Opens 
Act, that our Committee reported out last July. They say 
imitation is the greatest form of flattery, but unfortunately 
you did not carry my ideas all the way in terms of the pay for.
    You did pick up the idea, and I appreciate the President 
doing that. But depriving the Gulf states of revenue sharing 
from offshore production is just a nonstarter. It would up end 
a deal that 71 Senators supported and take money away from 
states that are counting on it to protect their coastlines. The 
effort to repeal revenue sharing is not going to go anywhere.
    In terms of paying for this new fund, I have suggested that 
a much better option is to increase domestic energy production 
and use those revenues to help communities in need. That would 
allow us to create jobs and reduce our foreign dependence 
instead of simply re-dividing the pie.
    The Administration also claims that this budget, ``invests 
in Alaska's long-term economic and environmental well-being.'' 
Again, I have looked through this budget proposal and what I 
see, unfortunately, is a continuation of the efforts that block 
our ability to safely develop our resources and really take 
away so many of the best opportunities that I think my state 
has to grow and prosper.
    One of the areas I am going to be asking you about this 
morning, Madam Secretary, is the Alaska land conveyances. We 
are sitting here 57 years after statehood, 45 years after 
passage of the Alaska Native Claims Settlement Act, and we are 
still dealing with our land conveyances, as you well know. I 
think it is fair to note that BLM did make some progress in 
2015, but what we are seeing within this proposal is more than 
a 20 percent decrease from last year's levels.
    We still have about 5.3 million acres left to convey. In 
our questioning we will have an opportunity to talk about how 
the methodologies are being used to provide for the surveys. 
This has been something that has, again, lingered so long. When 
you think about any state's ability to develop their lands, you 
cannot do it unless you have had that title conveyed.
    Other areas that we look at as being restrictive in terms 
of the Federal Government limiting opportunities for a state 
are the proposed regulations coming out of National Park 
Service and U.S. Fish and Wildlife, controversial within the 
state, certainly, but also nationwide. It just seems that the 
Department is intent on overriding state management authority 
over Fish and Game resources within their borders inconsistent 
with ANILCA. But again, we will have an opportunity to discuss 
that in Q and A.
    But it is not just Alaska. On top of all the regulations 
and restrictions we have seen, this budget would repeal a 
number of tax provisions that help maintain domestic energy 
production. It would impose an ambiguous new $10.25 per barrel 
tax on oil that will hurt families and businesses.
    We were out in Bethel just last week with five members of 
this Committee and myself. If you were to ask the people in 
Bethel if they think that it is a smart thing to do anything 
that would increase the price of oil to them, they are paying 
about $5.65, so they are having a tough time reconciling how 
this could possibly be a good thing.
    The budget also seeks to impose new fees on energy 
producers and a new royalty on hard rock miners. At a time when 
energy and commodity prices are low, I would expect that 
Interior would be looking for practical ways to make our energy 
and mining industries more competitive. Based on this budget it 
looks like the goal is to drive them away from our Federal 
lands and waters.
    With regards to the miners out in the Fortymile District, 
you ask them if these RMPs that they are looking at make it any 
easier for them to basically pursue what they have spent a 
lifetime trying to pursue as small, small operators out there. 
It is very tough to make that argument.
    Then at a time when we are recognizing that when we talk 
about energy insecurity, that also includes the insecurity that 
comes when we rely on others for our sources of minerals. When 
we look at new fees and new taxes on top of already slow 
permitting within the industry, it does make me question how 
does this help us when it comes to mineral security which, in 
turn, leads to economic security and national security?
    Legacy wells. This is an issue that you and I have 
discussed at great length over the years. We have suggested 
that it is the height of double standards that the Government 
would be allowed to basically take a pass in terms of clean-up 
when the private sector would be sued until the sun sets if 
they had done the same thing that the Federal Government has 
done. It is on ongoing environmental insult that the Government 
should never tolerate. I think we recognize the budget here is 
far short of what is needed where at $2.8 million, if I 
understand what it is costing us on a per well basis, it is 
pretty much close to $3 million a well because we have gotten 
beyond the easy ones, if you will.
    There has been a lot of news just this past week back home 
about the $50 million that I was able to secure through the 
Helium Stewardship Act which BLM is now using to clean up about 
40 percent of the legacy wells which, I think you and I would 
agree, gets us on that track. But making sure that we are on a 
path after that is, I think, critically important, particularly 
recognizing that we are looking at perhaps 29 more wells to be 
cleaned up. If you estimate maybe $2 to $3 million per well, do 
the math and we are going to be sitting here for a long time 
cleaning this up.
    Of course beyond energy there is King Cove. It was 26 
months ago today, today, that you rejected the lifesaving road 
for this remote community. At that time you promised that you 
were going to find some way to help the local residents, but I 
do not see anything in this request to protect those people 
whose lives remain in needless danger.
    More broadly, the Administration continues to ignore budget 
realities and propose billions in mandatory spending including 
for proposals that have been rejected in the past for very 
valid reasons.
    We have had a lot of consensus in this Committee about 
support for the Land and Water Conservation Fund (LWCF). We 
have actually moved through this measure as part of our energy 
bill, a provision that would address some reforms. But you are 
advancing full funding for LWCF without any offset and without 
reforms.
    Yet again, we will have an opportunity to speak more to 
this in question and answer. But when we recognize the 
substantial backlog that we have within the Federal agencies, 
the National Park Service at close to $12 billion backlog, it 
kind of begs the question, why are we pushing to acquire more 
land when it is obvious that we have a great need, a great 
demand, to care for the lands that we have.
    Now having said all that, I think that there are some 
important issues where I hope that we would be able to forge 
this common ground despite the budget proposals that we have 
here.
    We talk a lot about wildfire and the problem that we face 
in terms of budgeting and actual forest management. I noted 
that in the news yesterday in Alaska, we have our first 
wildfire out in the BLM area, outside of Delta, that has been 
contained. But it is a reminder that the season is coming a lot 
earlier. We just do not have the snow cover that we would hope 
up there. Our Committee is going to dedicate much of March to 
finding a solution to the challenges of budgeting and forest 
management.
    A second area where, I think, collaboration is possible is 
the National Park Service Centennial. I know that this is a 
priority of yours. I have said the Administration's proposal is 
unrealistic at $1.5 billion in mandatory spending, but I do 
think this is an opportunity for us to put the Park Service on 
a long-term path toward viability with its 100th birthday here. 
This is an opportunity for us to figure out how we can work 
through the maintenance backlog so that we have a park system 
that we can all be proud of. That would be a legacy for us all.
    With that, Madam Secretary, again, thank you for being here 
before us this morning. We look forward to your comments and 
that of your colleagues as well.
    Senator Cantwell?

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thank you, 
Senator Murkowski, for scheduling this hearing. It is good to 
be here to discuss the President's budget proposal for the 
Department of the Interior. I welcome all the witnesses here 
this morning. Certainly welcome to Secretary Jewell. This will 
be your final budget presentation before the Committee, so 
thank you for your work on this.
    Many of the priorities in this budget, such as the full 
funding of the Land and Water Conservation Fund and the 
development of funding for the National Park Centennial 
initiative, reflect tireless efforts by those in the agency to 
work on these issues. One of the signature issues here involves 
finding new ways to get young people to the outdoors and 
experience and enjoy our national parks and public lands.
    This budget includes funding for the Secretary's Every Kid 
in a Park initiative, which provides a free one-year admission 
pass for every fourth grader in the country to visit our 
national parks and other public lands. So thank you, Secretary 
Jewell, for your leadership on that initiative. It is greatly 
appreciated. I commend you for that and look forward to 
discussing many of these proposals.
    The proposed budget of $13.4 billion for the Department of 
the Interior reflects a very modest increase totaling half of 
one percent over current level funding. In my view this is a 
very responsible proposal that balances the funding for the 
Department of the Interior's often conflicting conservation and 
development mandates. More importantly, I'm pleased that the 
budget and the recent secretarial directives are taking a long 
term and forward looking approach to responsible energy 
development on public lands to address the impacts of climate 
change into the future.
    At the budget hearing last year I expressed my concern that 
the Department's efforts to reform the coal program were not 
going far enough and fast enough. What a difference a year 
makes. I want to thank Secretary Jewell for her bold action to 
modernize the Federal coal program. She has been a deliberate 
and thoughtful person when it comes to this issue. Thank you 
for the open and honest conversation.
    What we have now is the Bureau of Land Management's 
proposed rulemaking. The Bureau of Land Management held five 
listening sessions on this last August. The Secretarial Order 
that Secretary Jewell issued this January requires the Bureau 
of Land Management to undertake a programmatic EIS, or I should 
say programmatic environmental impact statement, to update the 
coal leasing program and ensure that taxpayers get a fair 
return. While the programmatic EIS is being prepared, no new 
Federal coal leasing will be issued, with limited exceptions. 
This programmatic EIS is long overdue. It has been 37 years 
since the current EIS was written. I think 37 years is long 
enough, so I'm thankful that this process is underway.
    This pause on new leasing activities is consistent with the 
actions of five previous administrations, four Republican and 
one Democrat, as well as a leasing moratorium approved by the 
Republican-controlled Senate in the 80s. So we cannot continue 
with business as usual. The cost to the taxpayers and the 
public do not match. We cannot continue to lease coal for $1.00 
a ton and collect another $1.00 in royalties while the cost to 
society is about $70 per ton. That enormous gap between public 
revenue and ultimate cost to the public is simply not 
defensible.
    There is much more to do in reforming coal leasing. So I 
plan to ask you about this, finishing the Stream Protection 
Rule and fixing reclamation self-bonding requirements, which 
are hugely important to addressing the legacy and impacts of 
coal to society. I want to thank you for taking action on 
these.
    The past year has also been a busy one for the Land and 
Water Conservation Fund. Working with Senator Murkowski and 
other members of this Committee we were able to pass out of 
Committee bipartisan Land and Water Conservation Fund 
legislation and make it permanent and dedicated to address the 
National Park Service maintenance needs. So this legislation, 
which is still in the energy bill that we are trying to move 
forward on, is a critical agreement. Hopefully we will be able 
to get this ultimately enacted.
    The Omnibus Appropriations bill that was passed last 
December extended Land and Water Conservation Fund authority 
for three years and increased the funding by almost 50 percent 
to $450 million. While this is certainly a step in the right 
direction and was a hard fought achievement, I want to make 
sure that we continue to get permanent reauthorization of LWCF 
and full dedicated funding.
    I strongly support the President's budget proposal to fully 
fund the Land and Water Conservation Fund at its authorized 
level of $900 million. The President's Administration proposal 
to transition to a mandatory funding stream for the program in 
future years is also something I fully support.
    I would like to mention a couple of other issues.
    In addition to conservation proposals, I am pleased to see 
that the President's budget is focused on science and landscape 
and watershed management. I am particularly pleased to see the 
proposals throughout the budget to foster climate change 
resilience in these areas, and I believe we must invest in 
science and smart solutions.
    In this vein I am particularly pleased to see the 
Administration's continued commitment to the Yakima Basin 
project. This $3 million increase in the proposed budget for 
the Yakima Basin is critical to completing fish passage and 
continuing to provide the stewardship that's needed. This 
project will restore fish runs that have been blocked for more 
than a century and one of what is the largest sockeye salmon 
runs in the lower 48.
    Secretary Jewell, as a fellow Washingtonian, I know you 
understand the importance of salmon issues to the entire 
economy. I want to thank the Bureau of Reclamation for being 
such great partners on a plan that, I think, is a model for the 
rest of the nation in watershed management.
    I will save the rest of the comments for the record on the 
Yakima Basin project but turn to the National Park Service 
Centennial. It is our 100th anniversary since the founding of 
the National Park Service. Along those lines, I want to say 
that I support our efforts to get legislation in and was happy 
to introduce the initiative by the Administration.
    But having said that, we need to work together, Senators 
Murkowski and Portman and others, on a National Park Service 
bipartisan effort to help make sure that the National Park is 
well positioned for it's next 100 years. I know this is a big 
challenge here in supporting new dollars and coming up with how 
we upgrade our park system, but I am sure that if there's 
anyone here that can meet that task it is Secretary Jewell 
because of her great love of the National Park system, her 
great utilization of it, and her great promotion of it.
    I hope that a number of the issues that have been detailed 
by both Chairman Murkowski and myself, as we talk about this 
proposal, actually come to fruition with some legislation that 
we can get passed because clearly the next 100 years of our 
parks deserves the investment that was made at the first 100 
years.
    With that, Madam Chair, thank you for holding this 
important hearing.
    The Chairman. Thank you.
    With that we will turn to Secretary Jewell. Welcome before 
the Committee.

 STATEMENT OF HON. SALLY JEWELL, SECRETARY, U.S. DEPARTMENT OF 
  THE INTERIOR; ACCOMPANIED BY THE HONORABLE MICHAEL CONNOR, 
DEPUTY SECRETARY, U.S. DEPARTMENT OF THE INTERIOR, AND KRISTEN 
  SARRI, PRINCIPAL DEPUTY SECRETARY OF POLICY, MANAGEMENT AND 
            BUDGET, U.S. DEPARTMENT OF THE INTERIOR

    Secretary Jewell. Thank you very much, Chairman Murkowski, 
Senator Cantwell and members of the Committee. I appreciate the 
opportunity to discuss the Department's Fiscal Year '17 budget 
request.
    I'd like to take a moment to mention the incident at the 
Malheur National Wildlife Refuge in Harney County, Oregon. 
Through tremendous patience and professionalism, the FBI with 
support from state and local law enforcement ended the 
occupation on February 11th as quickly and safely as possible, 
after more than 40 days. It was an incredibly disruptive and 
distressing time for our employees, their families and the 
Harney County community.
    I'm proud of our DOI law enforcement personnel who 
supported the response and helped keep our employees safe. We 
continue to cooperate with the Department of Justice, the FBI 
and others as the investigations move forward, and we remain 
committed to working with local communities on the management 
of public lands.
    Interior's Fiscal '17 budget request is $13.4 billion, half 
a billion above the 2016, excuse me, half a percent above the 
2016 enacted level. It builds on the successes we're achieving 
through partnerships, the application of science and innovation 
and balanced stewardship. It gives us the tools to help 
communities strengthen resilience in the face of climate 
change, conserve natural and cultural resources, secure clean 
and sustainable water, engage the next generation with the 
great outdoors, promote a balanced approach to safe and 
responsible energy development and expand opportunities for 
Native American communities. These areas are core to our 
mission and play a vital role in job creation and economic 
growth.
    The budget invests in our public lands providing $5 billion 
to support operations at our National Parks, historic and 
cultural sites, wildlife refuges and habitats and managing 
multiple use and sustained yield on our nation's public lands.
    It focuses investments on important working landscapes like 
the Western Sage Steppe and the Arctic and proposes a ten-year, 
$2 billion coastal climate resilience program to support at 
risk coastal states and local governments, including funding 
for communities in Alaska, to prepare for and adapt to climate 
change.
    As the National Park Service begins its second century, the 
budget provides $3 billion and includes a proposal that 
dedicates significant funding to reduce the deferred 
maintenance backlog.
    It calls for full and permanent funding of the Land and 
Water Conservation Fund and extends the expired authority for 
the Historic Preservation Fund.
    It reflects the Administration's strategy to more 
effectively budget for catastrophic fires. And I'd like to 
thank you for your leadership on this and look forward to 
working with you, particularly, next month.
    And in response to drought challenges across the West, it 
continues to safeguard sustainable and secure water supplies.
    We continue to engage the next generation of Americans to 
play, learn, serve and work outdoors with $103 million for 
youth engagement. This includes mentoring and research 
opportunities at the USGS, urban community partnerships, 
scholarships and job corps training for tribal, rural and urban 
youth and work opportunities in our bureaus.
    There's $20 million for the Every Kid in a Park Initiative 
which introduces America's fourth graders to their public lands 
providing education programs across the country and 
transportation support for low income students.
    We continue to promote a balanced approach to safe and 
responsible energy development that maximizes the fair return 
for taxpayers with $800 million for renewable and conventional 
energy development, a $42 million increase.
    We're on track to meet the President's goal of permitting 
20,000 megawatts of renewable energy capacity on public lands 
by 2020 and nearly $100 million for renewable energy 
development and infrastructure.
    Offshore this budget supports the Bureau of Ocean Energy 
Management and the Bureau of Safety and Environmental 
Enforcement with funding to reform and strengthen 
responsiveness, oversight and safety for oil and gas 
development.
    Onshore, $20 million supports BLM's efforts to develop a 
landscape level approach to oil and gas development, modernize 
and streamline permitting and strengthen inspection capacity.
    We're expanding educational job opportunities for Native 
communities with $3 billion for Indian Affairs, a five-percent 
increase, to support Native youth education, American Indian 
and Alaska Native families, public safety and building 
resilience to climate change.
    The President's budget calls for a $1 billion investment in 
Indian education as part of Generation Indigenous and $278 
million to fully fund contract support costs, a cornerstone of 
tribal self-determination.
    The budget supports our commitment to resolve Indian water 
rights settlements and support sustainable water management in 
Indian Country with $215 million, a $5 million increase.
    The budget includes funding to strengthen cyber security 
controls across all agencies. It also invests in science and 
innovation with $150 million for natural hazards in the USGS, 
an $11 million increase, and a $5 million increase for 3D 
elevation mapping in Alaska and nationwide.
    Funding will continue development for Landsat 9, a critical 
new satellite, expected to launch in 2021.
    This is a smart budget that builds on our previous 
successes and strengthens partnerships to ensure we balance the 
needs of today with opportunity for future generations. So 
thank you, Chairman and Senators, and I'm happy to answer any 
questions you may have.
    [The prepared statement of Secretary Jewell follows:]
    
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    The Chairman. Thank you, Secretary Jewell.
    I understand that Ms. Sarri and Mr. Connor are available 
for specific questions but are not providing comments this 
morning. Great.
    Let me start with some of the things that I raised in my 
opening.
    I will begin first with the Alaska land conveyances. As you 
know this has long, long been a priority of mine. I mentioned 
that your budget reflects more than a 20 percent decrease from 
last year's level.
    I know that there's been back and forth about the potential 
for change in Federal survey requirements. I have a full pack 
of correspondence that has gone back and forth between the 
State of Alaska and the Department of the Interior, but it is 
very clear that the state is asking that there be engagement.
    I am reading directly from a letter dated February 9th from 
the Commissioner of Natural Resources saying that, ``We need 
BLM to engage in an open and transparent manner to ensure that 
we come to agreement that advances both the state and Federal 
interest in terms of survey methodologies.''
    My question to you, first off, is why you felt you needed 
to advance a 20 percent decrease when we still have 21 million 
acres of survey work to complete between the state and the 
Native Corporations. We have got nearly 300 pending Native 
allotment parcels to convey which have been pending since 1906 
and then about 80 of the Village Corporation conveyances. It 
does not make sense to me that we would take the foot off the 
gas, if you will, when we have such a line up in front of us.
    Then if you can also speak to the commitment from Interior 
to engage with the state to ensure that the peer review which 
is underway and which, I understand, is due to be complete 
probably by the end of this fiscal year, that there is that 
discussion going on and that commitment to work with the state 
to ensure that the method, survey methodologies, are not going 
to get the State of Alaska in trouble. We do not need to be 
told that conveyances are complete only to find out that the 
methodologies do not hold up.
    So if you could speak both to the cut in the budget and to 
working with the state on this.
    Secretary Jewell. Well thank you, Senator.
    The BLM believes that new tools, largely the accuracy of 
GPS measurements, enable us to do conveyances in a much more 
efficient and faster way than we have before which is why we 
took some money out of this budget and actually put some of 
that into the legacy well clean-up.
    We believe that with these tools we can accelerate the 
timeframe to complete the conveyances for both Native lands as 
well as state lands which we think can be done within 15 years.
    The Chairman. But you will acknowledge that the state has 
not accepted the methodology that BLM is effectively pushing on 
them at this point in time, that there has not been acceptance 
of that, that the process that has been handled, historically, 
and has been outlined in terms of the requirements, that there 
has not been agreement between the state and the Federal 
agencies?
    Secretary Jewell. Well, we will continue to work with the 
state on that to reach agreement.
    I know that----
    The Chairman. I do want to hear that commitment that that 
will be ongoing.
    My concern is that while these discussions are ongoing that 
we are, again, taking the imperative off of the funding to 
allow for these conveyances to proceed. So this is something 
that, I think, the state has been very clear in terms of its 
need, its demand, for this peer review because we do not have 
the monuments and the technologies in place in the State of 
Alaska for you to be able to measure to the same degree that 
you can in the lower 48 where you do not have as much space as 
you are dealing with.
    My last question to you, real quickly, is and this has been 
communicated very, very clearly. It stated that the most 
significant obstacle, and again I am reading from 
correspondence from the state, and I will submit this for the 
record, ``the most significant obstacle to accelerating the 
completion of the state's remaining land entitlement is the 
revocation of long standing PLOs, the public land orders, that 
prevent the state from accurately prioritizing these lands most 
economically beneficial.''
    [The information referred to follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    Again, I put that out in front of you as a direct request 
from the state that we can move on lifting these PLOs and the 
Federal withdrawals that unnecessarily delay. That is something 
that we would like to attempt to work with you to advance that 
aspect.
    Secretary Jewell. We're happy to take that question for the 
record and provide you with a written response on this.
    The Chairman. Okay.
    Secretary Jewell.: Thank you.
    The Chairman. Since Senator Cantwell is not here, I will 
turn to Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Secretary Jewell, first of all, before I get to two issues 
that you have heard from me about for the last several years, I 
would like to thank you for providing full funding for the Land 
and Water Conservation Fund. Thank you for that.
    Secretary Jewell, ever since I first came to the Senate I 
have been raising the issue about the Bug-O-Nay-Ge-Shig School 
on Leech Lake Reservation in Minnesota. I have been pushing 
very hard to get construction money for the school, since I 
have been here.
    I am pleased that you had the opportunity to visit the 
school, thank you for doing that, and you got to see the 
deplorable conditions for yourself. You saw first-hand what the 
students and teachers of the school have to deal with every 
day. Children in Indian schools must be able to learn in a safe 
environment with modern facilities. I am very disappointed that 
the Bug-O-Nay-Ge-Shig School has still not been rebuilt.
    Secretary Jewell, what is the status of rebuilding the 
school and why is it taking so long?
    Secretary Jewell. Thanks for the question and more 
importantly, Senator, thank you for your advocacy in raising 
awareness of the issues that we face across Indian Country with 
the condition of tribal schools. It's really deplorable in many 
locations with nearly a third of our schools in poor condition.
    I did visit the Bug School. It is in bad condition, the 
high school is. I appreciate the support that you put in the 
budget for 2016 with regard to replacement facilities.
    We are undertaking a process of prioritizing schools that 
need full campus replacement. We have, just now, identified the 
final two schools on the 2004 list because funding has been 
made available for their replacement. We're going through a 
process that's dictated by the No Child Left Behind Act on 
creating that next priority list, but that is for whole campus 
replacement.
    So we will, this spring, come out with the prioritized list 
for whole campus replacement. The replacement school 
construction for a building like the Bug-O-Nay-Ge-Shig School 
is separate from that. I would anticipate that in the coming 
months you will see clarity on that facility and replacement 
school facilities facilitated by the support that you provided 
in the budget for 2016. So, thank you.
    Senator Franken. I understand. Thank you.
    I continue to be frustrated with the slow pace of funding 
for rural water projects. Local communities in Minnesota have 
prepaid 100 percent and throughout the project in South Dakota 
and Iowa, paid 100 percent of their share of the Lewis and 
Clark Regional Water System. State and local partners are doing 
their part, but the Administration has routinely underfunded 
the project and unfortunately your Fiscal Year '17 budget 
request is no exception. I raised this issue, as you know, year 
after year because it continues to be a source of frustration 
for Minnesota communities.
    What is your recommendation for addressing this funding 
shortage? How can we work together to complete the Lewis and 
Clark Regional Water System and deliver water to these rural 
communities that have paid in full their fair share and still 
have not gotten water?
    Secretary Jewell. Senator Franken, I appreciate your 
ongoing advocacy for Lewis and Clark and rural water in general 
and working toward a budget set in the budget agreement 
negotiated. We did have to make some hard decisions but with 
your indulgence I'm going to turn to my colleague, Mike Connor, 
who is really our expert on water issues.
    Mike?
    Mr. Connor. Thank you.
    Senator, we've lived through this frustration with the 
funding for rural water projects, and I've talked to you many 
times. Since we invested about $240 million in rural water 
projects through the Recovery Act funding, our budgets have 
been constrained given other priorities, legal obligations, 
that Reclamation has.
    We're trying to maintain a level of funding to keep the 
project moving forward. I think we had $3 million in '16, $3 
million in the '17 budget. We are very pleased with the 
additional money that Congress wrote in, the additional $47 
million for construction activity, and I think we allocated an 
additional $7 million to Lewis and Clark specifically from 
those resources.
    I think we will continue to invest those funds that are 
written. I know it's a priority for many members here and work 
with the communities to make incremental progress and 
meaningful completion of segments of each of these projects.
    We've got about a $1.3-$1.4 billion backlog in these 
projects. They're good projects. They just don't compete at the 
level of some other legal obligations that we have within 
Reclamation's budget.
    Senator Franken. I am out of time. So thank you for those. 
I have some other questions I would like to submit for the 
record.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Capito?
    Senator Capito. Thank you, Madam Chair and thank you, 
Secretary Jewell, for being with us today to talk about the 
budget.
    First, I would like to highlight the condition, I think we 
have talked about this, the Canaan Valley National Refuge 
Headquarters in, sort of, the center of West Virginia. I 
visited there several times and have talked with the director 
and regional director at Fish and Wildlife regarding the 
undesirable condition of the Canaan Valley National Refuge 
Headquarters and Visitors Center.
    We have been working with them and with you all to try to 
bump them up on the list. I understand they are not on the list 
for this present year, but I am putting a plug in for that and 
hoping that maybe if some construction funding becomes 
available for planning that we can move forward on that. I do 
not know if you have a comment on that or if you are aware of 
that project?
    Secretary Jewell. I am certainly aware of the project.
    Senator Capito. Yes.
    Secretary Jewell. Appreciate your advocacy. It didn't make 
it on the priority list.
    Senator Capito. Right.
    Secretary Jewell. Because of the long list of demands, but 
we'd be very happy to continue to look at that as construction 
money comes available.
    Senator Capito. Thank you.
    Secretary Jewell. Thank you.
    Senator Capito. Thank you for that, I appreciate that.
    I would like to talk a little bit about the impact the 
Stream Protection Rule is having on mining, particularly on the 
underground mining. I know the rule is not completely finished. 
We just had Mr. Pizarchik at, I said his name wrong, Pizarchik, 
at EPW to talk about the effect not only on surface mining but 
on the underground mining. As you know, there is a definite 
difference of opinion as to whether this actually will impact 
our underground mines. What comment would you have on that and 
where is the status of the rule?
    I was looking through your budget and I do not see any kind 
of implementation dollars that you have allotted for to 
implement this thousands of pages rule which, I think, is very 
complicated. What is the status of that?
    Secretary Jewell. Let me talk briefly about the status of 
on the rule, and then I'm going to turn to Kris Sarri for 
specifics around budget amounts.
    The Stream Protection Rule is really updating a rule that 
says we need to know what the baseline water situation is in 
watersheds so that we know if they've been impacted, can put 
them back to the way that they were. We believe this is very 
important given the water quality impacts that have happened 
across, particularly Appalachian regions, with mining practices 
in the past and the impact on water quality.
    Kris, the timing on the rule?
    Ms. Sarri. I am sorry. We just have one mic up here.
    The rule is still under development.
    Senator Capito. Right. Right.
    Ms. Sarri. So there's no specific time yet.
    Senator Capito. I would just say here that I have had some 
serious reservations about the far reaching nature of it. If we 
are going to be going after a balanced energy policy, this will 
have great impacts on my state, as many of the other 
regulations that have moved through.
    I want to ask a final question. I noticed in your budget 
you have the money for the miner health and pension fix with 
the UMW miners, who are basically up against the wall in terms 
of their ability to realize a benefit that was promised to them 
and had been promised to them through their service as our 
nation's coal miners and their families. Obviously this heavily 
impacts both Senator Manchin and I, from West Virginia, heavily 
impacts our state. I noticed that you have a $4.2 billion 
allotment for this, that you are going to go through the PBGC. 
Where are you going to get this money?
    I want to see this fix come forward. I do not know if you 
figured out how we are going to get this done because we have 
been trying to work very deeply, thought we might have it on 
the Omnibus. What is the Department of the Interior's solution 
to this problem?
    Secretary Jewell. I'm going to take a crack at a high level 
then turn to my colleagues to add a bit more detail.
    The Power Plus recommendation in the President's budget for 
last year and again in the 2017 budget begins to address this. 
It's by no means a full fix, but it begins to say let us 
accelerate challenges we have with mining families and their 
coverage as well as let's accelerate money from the Abandoned 
Mine Land funds to put miners to work in Reclamation projects.
    So Power Plus is our step in that direction. It's by no 
means a full fix but within the context of the budget 
restraints that we're operating on, it's a step in that 
direction.
    We would welcome an opportunity to work on a longer term 
fix with you because we understand the devastating situation 
that you face as many of these coal mines are closing down and 
people are losing their jobs.
    Kris, do you want to add anything?
    Ms. Sarri. I think the only thing to add is, as you 
mentioned, we also have mandatory money in our budget for 
United Mine Workers. And I'm happy to get back to you more on 
the record.
    Senator Capito. When you say you have mandatory money in 
your budget, it has not been authorized, no?
    Ms. Sarri. There's, kind of, there's the Power Plus 
Initiative and then there's some additional funding.
    Senator Capito. But we are a long way, to get to where you 
are saying we need to be and to where, in reality, we are going 
to end up with there is just too much gap there to have any 
kind of satisfaction that we are actually going to help these 
coal miners and their families as they retire with their health 
and pension benefits.
    But we will work together, hopefully, and be able to find a 
more satisfactory solution that is actually going to turn into 
the reality of the promises that were made that will be kept.
    Thank you.
    Secretary Jewell. Thank you.
    The Chairman. Senator Manchin?
    Senator Manchin. Thank you.
    Just following up on what Senator Capito has been speaking 
about because we are very much concerned. First of all, on the 
building up in Canaan Valley. When the Fish and Wildlife gave 
up the new building that we had on top of the mountain and they 
gave that to the STEM, to the academy, 4H youth academy. That 
was going to go for STEM research. That was a high priority, 
and Fish and Wildlife, you all, were very, very gracious in 
doing that for the highly needed STEM education.
    With that we were promised that that would be a high 
priority on getting them the new Fish and Wildlife building 
that they so desperately need. I think that is where Senator 
Capito and I are both committed to helping on. But that was the 
whole crux of the meetings that we had had up there, Secretary 
Jewell. I would hope that maybe you could follow up of the 
importance of getting that accomplished because you all were 
very gracious.
    It was for a tremendous cause for STEM, for all the STEM 
education for children around the country, not just West 
Virginia. This is around the country bringing it to this 
setting. But we left them in a dilapidated situation because 
they were gracious enough to put the kids first.
    We are pleading with you on that one to please move them 
up. I think it is a $5 or $6 million project which is a lot of 
money in West Virginia but here in DC it is just unnoticed.
    Secretary Jewell. Excuse me, it's a really challenging 
situation with the number of buildings that we have in 
dilapidated conditions from Indian schools to National Parks 
and wildlife refuges and not enough money to actually address 
it long-term. But I appreciate your advocacy for this project--
--
    Senator Manchin. Yes, well I am just saying that was part 
of the dialog that went on and the commitments were made.
    In a report dated December 2015, the Omnibus Consolidated 
Appropriations bill language, language was included noting 
concern that the Office of Surface Mining (OSM) is not working 
with important state partners in an effective manner. The 
language goes on to state OSM should reengage state partners 
before finalizing the stream buffer zone rule in order to 
achieve the best outcome possible.
    OSM was directed to provide state with extensive data 
analysis relative to the environmental reviews as well as draft 
and final environmental impact statements. The only thing I 
would ask, Secretary, is why is the requested information on 
environmental reviews and impact statements relating to the 
stream buffer zone rule not yet been released?
    Secretary Jewell. We will have to get into the detail. My 
understanding is the rule has been released for comment and 
there are a number of states that are going through the 
details. If there's particular elements of that rule that you 
don't have access to or the states don't have access to, we 
will follow up on that, but we are now in a process where we 
look forward to input from the states and welcome that input as 
we finalize this rule.
    Senator Manchin. My staff, if you do not mind, will get in 
contact with you and we will work with you very closely on 
that. But we need your attention on this. That is very 
important for us to be able to continue to do any business 
whatsoever.
    Secretary Jewell. Do you want to add to that?
    Mr. Connor. Senator, I think you were referring to the 
language in the Omnibus that directed us to provide additional 
materials.
    Senator Manchin. Correct. Correct.
    Mr. Connor. And I think that material is being pulled 
together. And I do think it's by, within, a few weeks where we 
anticipate fulfilling that commitment under the Omnibus.
    Senator Manchin. Thank you.
    Mr. Connor. We'll work with your staff----
    Senator Manchin. Okay, I appreciate that.
    Mr. Connor. They understand that.
    Senator Manchin. Also to reiterate the UMW, the Miners 
Protection Plan is a commitment made in 1946 because of the 
need of fossil energy that made this country as great. 
Everybody has forgotten about what fossil has done. All we have 
been doing is demonizing it, and demonizing it since I have 
been here is ridiculous from the standpoint we want to move 
forward with technology but we cannot get this Administration 
to even take a good look at what technology is needed to use a 
resource that has made the country what we are today, the 
greatest power on Earth.
    With that being said, there was a promise made in 1946 as 
far as the pension and their health benefits. That is about to 
go completely bankrupt, as we have talked about. The Miners 
Protection Plan has the excess AML monies going towards 
strengthening that so they will be able to get the commitment 
that was made to them. That is what we are asking for.
    I do not know if that is in your evaluation but your 
support would be desperately needed because it is not taking 
away from the projects that are needed to be reclaimed. Most of 
the Appalachian, who have done the heavy lifting over all these 
years, is where it really is needed. We are not taking away 
from that, we are basically saying excess funds should be used 
to fulfill the commitment promises made. I would desperately 
ask you to maybe get up to speed on that and help us.
    Secretary Jewell. Yeah, we're happy to continue to work on 
that particularly through OSM. Also I will say the Department 
of Energy does continue to have research into carbon capture 
and sequestration for coal but I'm not familiar with their 
numbers----
    Senator Manchin. I can tell you, trust me, we do not want 
to get down this road.
    Secretary Jewell. Okay.
    Senator Manchin. Because they talk a good game, but have 
not done a darn thing. The bottom line is, as you know, the 
standards that they are wanting us to set are unattainable 
because the technology has not been developed to where it is 
under commercial load.
    You know, we can do scrubbers, and we can do low Nox 
boilers, we can bag houses, and we have proven all that.
    We do not even mandate there are other countries that are 
polluting the world, even use that, China, India or any of 
them. But yet we are pushing the cart of CO2, capture of CO2, 
which we have not even commercialized yet. And we won't go that 
extra step. So that is a whole other meeting to be had.
    Secretary Jewell. Fair enough.
    Senator Manchin. Thank you.
    The Chairman. Senator Cassidy, apparently I skipped over 
you in an effort to get down to Senator Capito. I apologize.
    Senator Cassidy. Senator Murkowski----
    Senator Capito. That's because I went to Alaska with her, 
see, so I got to go ahead. [Laughter.]
    Senator Cassidy. No harm done, thank you.
    The Chairman. Thank you.
    Senator Cassidy. And I got to hear my colleague speak, so 
that was worth it.
    I gather at the outset, Senator Murkowski, you said the 
changes in revenue sharing were off the table, so I appreciate 
that.
    I will begin, Madam Secretary with, kind of, that 
discussion. Craziest thing in the world. To paraphrase Ronald 
Reagan, it appears sometimes the left hand does not know what 
the left hand is doing.
    On the tenth anniversary of Katrina I was in the Lower 
Ninth Ward, and of course the whole area had been devastated. 
You can still see, kind of, marks where the water was this 
high, all as a result of Katrina. Yes/No.
    Louisiana began to lose its wetlands in 1928 when the 
Federal Government began to levy the Mississippi River 
primarily for the benefit of commerce inland. A commitment was 
made by a unanimous, almost unanimous, group of Senators, and 
House of Representatives, in order to begin to dedicate some of 
that offshore oil revenue to rebuild our wetlands.
    I am sitting in the midst of this devastation and now the 
rebirth and the President is there to celebrate. And I said to 
the President, ``Mr. President, do you know that your budget is 
trying to take away the money that Louisiana is 
constitutionally directed to use to rebuild our wetlands?'' He 
looked over to Mr. McDonough sitting there and I said, ``Mr. 
President, I do not expect you to know this level of detail, 
but this is what your budget is doing.'' He looked over at Mr. 
McDonough and said, ``Is this true? It can't be true.'' He gave 
a little, kind of, well, we didn't know the state was going to 
use the money appropriately. I said, ``Well, constitutionally 
we have to use it to rebuild our wetlands.'' And the President 
said, ``We'll change that. I don't want this to happen again.'' 
Implicit in that is his understanding the only way to keep that 
from happening again is if we rebuild our wetlands. Low and 
behold, your budget takes away those dollars.
    I appreciate the Chair's defense of it, but I would really 
like to know the kind of thought process associated with that 
because it seems to be, kind of, a recurring theme in your 
budgets. They, sort of, neglect Louisiana's needs and you will 
dispute that characterization, but it is clear it is a neglect 
of Louisiana's needs.
    So let me just lay out some points.
    In our state's master plan to restore and protect coastal 
Louisiana, there is about $1.8 billion anticipated in offshore 
revenue sharing for this coastal restoration over the next ten 
years, $3.5 billion over the next 20. The whole project will 
take $50 billion. Louisiana is committing its own significant 
resources. But this, as you might guess, is a part of that.
    The Coastal Climate Resilience Program referenced on page 
five of your testimony basically deprives those Gulf Coast 
communities of the resources and predictability that is 
currently given, so the contracts will not be left with the 
same sort of understanding. So again, I am not sure how your 
Department arrived at this.
    By the way, it is not just me representing the State of 
Louisiana. The Environmental Defense Fund, the National 
Wildlife Federation, the National Audubon Society, the Lake 
Pontchartrain Basin Foundation stated, as a group, they are 
``Disappointed by the budget's proposed aversion of critically 
needed and currently dedicated funding for coastal Louisiana 
and the Mississippi River Delta.''
    By the way, Oxfam America, a group dedicated to fighting 
poverty, stated that, ``America's Gulf Coast is home to some of 
our nation's highest rates of poverty, greatest risk of natural 
hazards, like sea level rise, hurricanes, flooding and coastal 
land loss. Oxfam recognizes and appreciates efforts to promote 
more equitable sharing of offshore energy revenues and support 
new investments in the resilience of our coastal community.''
    All this, let me ask, the Federal Government's decision, 
let me just ask. Do you dispute that the Federal Government's 
effort to channel the Mississippi River for the benefit of the 
rest of the country's economy has had a negative impact upon 
our coastline? You might just dispute the facts, so I guess I 
would like to start there.
    Secretary Jewell. Let me start by saying that there's no 
question that Louisiana's wetlands have been impacted over the 
years by the channelization. I've been out and I've seen MR-GO 
and what's happened when that has been blocked off and the 
rebuilding of the Barrier's Islands, seen that personally.
    I've been out to a lot of these coastal wetlands that are 
diminishing. I acknowledge that Louisiana has a significant 
problem with coastal erosion that is exacerbated by sea level 
rise, climate change and, of course, that was very much brought 
home to the world in Hurricanes Katrina and Rita on that 
region.
    We believe that coastal communities like Louisiana do 
warrant additional support. We have recommended in this budget 
that the GOMESA program which distributes revenue sharing for 
four Gulf Coast states go to coastal Reclamation projects 
across the country including the Gulf Coast because----
    Senator Cassidy. Of course that would subtract 
substantially from what the area most vulnerable will receive.
    Secretary Jewell. Well I think it would, it's fair to say, 
having been also to the Arctic, that they are having 
significant problems with coastal erosion as well. And this was 
an effort on our part to say these are Federal waters in the 
Gulf Coast as well as, you know, offshore and other areas that 
belong to all Americans and the benefit of the revenue from 
that supports the Land and Water Conservation Fund. But also, 
we believe should support coastal resilience projects as 
opposed to just being limited to those four Gulf Coast states.
    Senator Cassidy. Except seeing that those areas are the 
ones most impacted, I mean, is there, if it affects their 
Federal lands. I will always point out that onshore, we get 
37.5 but onshore Federal lands 50 percent of the revenue 
returns to the state. So there is already a decrease in the 
amount that the coastal states receive.
    By the way, the way I would address that is to expand 
revenue sharing to the Atlantic and Arctic coast. If you did 
that then again you would have an increased amount of money to 
share with those coastal communities as well as the Land and 
Water Conservation Fund. It seems the better way to go.
    I am over my time. I apologize. I went too long setting the 
context. I yield back.
    The Chairman. Thank you, Senator Cassidy, I appreciate the 
expansion of the pie.
    Senator Cantwell?
    Senator Cantwell. I'll pass to my colleague.
    The Chairman. Senator Heinrich?
    Senator Heinrich. Thank you, Madam Chair, and thank you 
Ranking Member Cantwell.
    Secretary Jewell, welcome.
    I want to start out on the Valles Caldera National 
Preserve. In December 2014 Congress transferred management of 
the preserve to the National Park Service. One of the reasons 
that I fought so hard for that legislation was the opportunity 
that it presented for increased public access to what was a 
very limited situation before at the preserve for things like 
hunting, fishing, hiking, camping and other visitation.
    Can you talk a little bit about whether any changes have 
been made since the Park Service took over management of that 
site and what we can look forward to in the future?
    Secretary Jewell. Thank you for the question and more 
importantly for your advocacy, not only of that monument 
designation, but also Organ Mountains Desert Peaks.
    We have seen a substantial increase in visitation in the 
Rio Grande del Norte National Monument. I'm going to turn to my 
colleague, Kris, to see if you have specifics on the numbers 
and what might be in the budget for this coming year. But we 
will continue to do the master planning and determine what is 
appropriate with the anticipated visitation.
    Kris, do you have a number?
    Senator Heinrich. Actually Secretary, that is something I 
want to ask about, the budgeting for the two landscape level 
BLM National Monuments. But specifically, in this case, I was 
hoping to get a sense for changes in management posture at 
Valles Caldera.
    Secretary Jewell. I'm sorry, you said Valles Caldera.
    Senator Heinrich. Under the Park Service.
    Secretary Jewell. And I--yes, yes, yes.
    So I have been out to Valles Caldera, incredible resource. 
We did the handover to the National Park Service. Jorge, who 
was working in Interior and then running that, is now the 
Superintendent. Many of the staff members have been picked up 
by the Park Service and are working on a plan overall to 
determine what kind of visitor use facilities are appropriate 
there.
    I will say that there's been incredible research in 
archeology, in the impact of climate change and wildfire in 
that region that I think will continue to tell a really 
important story, as well as, engaging with local pueblos, 
tribes that are interested in playing some role in bringing 
their history with this area to bear.
    But specifically a dollar amount, Kris, do you know?
    Ms. Sarri. We're continuing the investment made in 2016, so 
it's $3.4 million overall in 2017.
    Senator Heinrich. Okay, great. Thank you.
    Secretary Jewell. Sorry for my miscue on location.
    Senator Heinrich. No, that's alright.
    I want to move to Carlsbad Caverns. Last year both of the 
passenger elevators broke down at Carlsbad Caverns National 
Park and have now been inoperable for a number of months. This 
really puts a crimp in visitation to, sort of, the main 
attraction there.
    That means the visitors have to take a fairly substantial 
hike back out of the caverns on foot, and it limits 
accessibility, in particular, for people with physical 
disabilities, and for small children. Needless to say that is a 
major portion of Eddy County's economy with visitors buying 
gas, staying at local hotels and motels oftentimes when they 
visit both Carlsbad Caverns and White Sands National Monument 
which is not far away.
    With spring break season coming up I think it is critical 
that we get these elevators back up and running so that 
Carlsbad, as an area, does not lose out on that critical 
recreational and visitation spending.
    Can you tell us a little bit about what happened to the 
elevators, what the Park Service is doing to fix them, and when 
we might see at least one of them available for visitor use 
again?
    Secretary Jewell. Well in a nutshell this is a good 
indication of what we're struggling with, with deferred 
maintenance across the National Parks with $12 billion of 
backlog in both transportation and non-transportation assets.
    In the case of Carlsbad, which I have been to, those 
elevators are over 40 years old and they've been working hard 
to keep them going. But ultimately they break down. The 
estimated cost to replace the works there is over a half a 
million dollars. So right now the National Park Service is 
looking to retrofit the existing freight elevators to make them 
safe for passengers to use, and the goal is to have this work 
around in place sometime early to the middle of next month for 
the reasons you expressed. But it's another indication of the 
challenges we have when we've got this deferred maintenance.
    Thank you.
    Senator Heinrich. Great, I appreciate that.
    I want to say a couple of other things, just quickly, 
before we go.
    I want to thank you for the Administration's proposal to 
create a hard rock royalty fee.
    You know, we have obviously experienced incredible 
challenges with the Gold King Mines bill but there are 
literally thousands of abandoned mines all across the West that 
are leaking acid, water and heavy metals into our streams and 
rivers. That is a direct threat to the Western economy. It 
hampers downstream users, be that industry, be that recreation, 
irrigated agriculture, etcetera.
    I also want to thank you for the efforts in this budget to 
facilitate access to the Sabinoso wilderness, a BLM wilderness 
area in New Mexico, that I believe is the only unit in the 
United States that you cannot currently legally access because 
there is no easement, no fee simple land, no ability to get 
into it by the public. The folks up in the Las Vegas area are 
incredibly excited at the prospect of that, and I want to thank 
Interior for its work there.
    Secretary Jewell. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Madam Secretary, over the last year you have repeatedly 
questioned whether American taxpayers are receiving a fair 
return on coal leased by the Federal Government. Your agency is 
now in the process of considering whether to increase royalty 
rates on coal. I am having a difficult time understanding why 
the agency is taking this step because over the last three 
years the demand for Federal coal has collapsed.
    Since 2012, the amount of coal that the Federal Government 
has leased is down 95 percent, so that amount is down 95 
percent. Prior to coming to the Department of the Interior you 
served as the Chief Executive Officer of REI, a retailer of 
sporting goods. I know you are familiar with basic economics. 
Economics 101 says you should not raise prices on a product 
when demand for that product is collapsing. So given the demand 
for Federal coal is down by 95 percent do you really believe it 
is reasonable to increase the royalty rates on coal?
    Secretary Jewell. Well Senator, the Government 
Accountability Office and our own Inspector General questioned 
whether we were getting an adequate return for taxpayers on the 
Federal coal program. This launch of a programmatic EIS broadly 
will take a look at some of those issues.
    Our Office of Natural Resources Revenue has done some work 
regarding royalties. The rates that the taxpayers receive for 
coal is very low and I recognize that the industry is 
struggling right now for a variety of reasons, not the least of 
which is the conversion to natural gas for electricity 
generation. But we have been criticized roundly for not 
generating a fair return for taxpayers, not having any 
competition in the leasing process for coal and that has 
resulted in relatively small cost paid by coal producers for 
the coal in the ground that belongs to all Americans. So this 
really has been in response to criticism that we have received 
over multiple years.
    Senator Barrasso. But doesn't it seem to you that if the 
demand goes to zero that the revenue coming in is going to go 
to zero as well for the Government? So in fact, you are 
actually going to get less revenue, higher royalty rates and 
you are going to reduce demand. The revenue generated from coal 
is going to continue to go down.
    This is why the environmental extremists have aggressively 
lobbied you to raise royalty rates on coal, to kill coal. They 
know it will kill coal production. So I think if you are really 
willing to be honest with Congress, you would admit that here 
today.
    Secretary Jewell. Well Senator, I think that the, you know, 
as a business person you recognize that there is a cost to your 
business and you factor all of those costs in and that 
determines whether or not you go forward.
    There's no question that the cost that coal companies have 
been paying for coal is extremely low, less than a dollar a 
ton. We've had many coal leases that have been offered for sale 
that have had no bidders on them whatsoever. So I think that to 
conflate the two is not necessarily accurate.
    There are phenomenal differences going on in the energy 
sector across this country. Switching to natural gas, switching 
to renewables, the cost of coal royalty is only one component 
in the overall cost that if I was a mining company I would be 
looking at.
    So, I think, we are responding to criticism that we've had 
that's been very fair with regard to the coal program. And as 
Senator Cantwell said in her remarks, we will be looking at 
this thoroughly over the coming three years or so.
    Senator Barrasso. I am delighted that the Administration 
will be ending in a lot less than three years.
    I would like to turn to the BLM's proposed rule of natural 
gas flaring and venting. According to the BLM's rule, the 
primary means to avoid flaring gas from oil wells is to 
capture, transport and process the gas for sale using the same 
technologies that are used for natural gas wells.
    The rule goes on to explain in areas where the rate of gas 
production is outpacing the infrastructure capacity that is 
existing. In areas where capture and processing infrastructure 
has not yet been built, the rule notes that the cost to install 
natural gas gathering lines is not cheap. It costs us, 
according to the rule, the cost of installing equipment and 
pipelines to capture and transport can be up to $400,000 to $1 
million per mile for the pipeline. I think BLM's proposed rule 
does, actually, a very good job describing the problem that oil 
and gas producers face.
    Then BLM's solution completely misses the mark. Rather than 
taking steps to expedite the permitting of these natural gas 
gathering lines on Federal land, the rule simply raises cost to 
producers and does so at a time when natural gas sells at 
bargain basement prices. BLM's goal seems to be to reduce 
flaring by eliminating oil and gas production on Federal lands. 
So if the BLM is sincere about helping producers reduce 
flaring, which is the goal that the BLM states, why doesn't the 
proposed rule expedite the permitting of these gas gathering 
lines on Federal lands?
    Secretary Jewell. Well, may I answer?
    The Chairman. Yes, please go ahead.
    Secretary Jewell. Thank you.
    First, thank you for acknowledging that we're trying to 
work very hard and we're also paying attention to states that 
have venting and flaring rules and that are doing work along 
this line, including your home state of Wyoming.
    I think it's a very fair question to say, as we look at 
addressing the venting and flaring, can we expedite permitting? 
And we will look into that with the BLM providing it runs along 
state lands. Oftentimes, as you know in the West, we've got a 
checkerboard pattern which complicates rights of way over long 
distances. But I think that is fair.
    I also will say that the practice of venting and flaring 
the gas associated with oil production is something that, I 
think, your state and we do not feel is acceptable over the 
long run that should be captured.
    So we are in a comment period on this. We look forward to 
taking those kinds of comments and to the extent that 
expediting permitting can be done to address that, I think 
that's a very fair point.
    Senator Barrasso. Madam Chairman, my time has expired. 
Thank you.
    The Chairman. Senator Wyden?
    Senator Wyden.. Thank you very much, Madam Chair.
    Secretary Jewell, it is good to have you here. Last week I 
was getting all out and about through rural Oregon, and what I 
saw was an awful lot of economic hurt people just walking on a 
tightrope balancing the food bill against the shelter bill and 
they are working two or three jobs and are just trying to catch 
up.
    So what I want to talk to you a little bit about is rural 
economics and ways in which we can pump some more economic 
opportunity in those communities for good paying jobs in Ag and 
Forestry and a variety of areas.
    One that I have been particularly struck by is getting 
people to work together so they do not end up in Federal Court. 
I think the best recent example is the sage grouse where we 
were looking at having another major Endangered Species Act 
listing. Under your leadership a lot of Democrats and 
Republicans got together and we avoided that listing.
    We are doing that same kind of work in forestry, as you 
know, the militants at one point were headed from the Malheur 
Refuge up to John Day. And one of the county commissioners 
said, you know, we've got a pretty good partnership here. We've 
got a collaboration with stewardship contracting and we have 
tripled the harvest here. These are not my words. These are 
words of a county commissioner. So getting people to work 
together is key.
    Secure Rural Schools has been a lifeline, and that is a 
bill that was written in this room on a bipartisan basis.
    Recreation is a third area. I saw that with our tour of the 
seven wonders and we are working on a backpack full of fresh 
ideas Democrats and Republicans can support to build the 
outdoor recreation economy.
    The list just keeps going. Tapping our green energy 
resources, biomass, a huge opportunity in my state that is both 
good forestry policy and helping to create jobs as well.
    Finally right at the top of this year's priority list 
should be to eliminate this text book example of government 
inefficiency that we call fire borrowing which is this absurd 
process of shorting prevention, having lots of fires and then 
raiding the prevention fund in order to put it out.
    So those are some on my list of things that we can work on 
in rural economies and to a great extent, build on what we are 
already doing.
    Tell the Committee while we have colleagues of both parties 
here, what do you think are the next steps, in your view, for 
building on this progress? Next steps for getting people to 
work together, for example, collaboratives, this kind of thing.
    Secretary Jewell. Well thank you, Senator Wyden.
    You know, as you point out, there's lots of opportunities 
to work together. And I think it's also fair to say that the 
work around the greater sage grouse, the support of the 
National Resources Conservation Service at USDA, the incredible 
work that took place in Harney County which actually had a 
significant impact, I think, on the reasons why people in the 
county generally did not support the rhetoric of those that 
illegally took over the refuge, is an example of how we can 
work more cooperatively together.
    I do think that there are opportunities with a wildland 
fire fix which Senator Murkowski talked about addressing 
particularly next month. You have, all three of you, actually 
have worked very hard on this. That is essential because if we 
could stop borrowing against the burned area rehab money and 
the prevention of fire money, we could put more money into 
those local communities for thinning whether it goes to biomass 
or whether it goes to sawmills.
    And I think that is also very important to rural economies.
    But as you point out embracing outdoor recreation and 
tourism is also a great opportunity to drive additional revenue 
into these communities as Senator Heinrich was referencing in 
the monument designations within his state and the investments 
there.
    So I think working closer together than we ever have 
before, learning the lessons we did from the greater sage 
grouse effort that we had collaboratively and providing our 
folks on the ground with the kinds of tools and support to work 
locally with communities is a great way to move forward.
    The USDA's National Resources Conservation Service, our own 
efforts in the BLM and the Fish and Wildlife Service, the state 
efforts, the collaboration that we've seen, particularly over 
the last two, three years is something that we can learn from 
in the future.
    Senator Wyden.. Thank you very much.
    The Chairman. Senator Lee?
    Senator Lee. Thank you, Madam Chair.
    Thank you, Madam Secretary, for being with us today.
    I would like to ask you just a few questions about the 
Antiquities Act. Based on conversations I have had with you in 
the past and based on other statements you have made elsewhere 
in the past, I know you placed a lot of emphasis on the 
importance of local engagement during the process leading up to 
any monument designation under the Antiquities Act, and I 
appreciate that.
    For instance, after designating the Berryessa Snow 
Mountains in California as a national monument you said, 
``Today's action honors more than a decade of work by the local 
community to protect this beautiful landscape.'' After 
designating the Browns Canyon National Monument in Colorado you 
repeated the same sentiment saying, ``Today's designation 
follows more than a decade of work by the local community to 
protect this spectacular area.''
    Now it is widely reported, Secretary Jewell, that President 
Obama is considering designating a nearly two-million-acre 
national monument in San Juan County, Utah that is in the 
Southeastern corner of my state, the so called Bears Ears 
National Monument. Much of this land, as you know, is owned by 
the Federal Government and managed by the Department of the 
Interior.
    So since we both believe in local consultation or we 
believe that that ought to be a prerequisite to anything that 
culminates in a monument designation under the Antiquities Act, 
I was just wanted to point out that there is not one elected 
official, not a single one, representing San Juan County, Utah, 
who supports the creation of a national monument under the 
Antiquities Act.
    Specifically I want to point out that on September 1st of 
last year the San Juan County Board of Commissioners passed a 
resolution stating, ``Be it resolved the San Juan County 
Commissioners strongly oppose the unilateral use of the 
Antiquities Act to designate a national monument within San 
Juan County and instead supports locally driven land use 
planning.''
    On February 10th of this year the entire Utah Federal 
delegation wrote a letter to President Obama plainly stating, 
``We do not support the use of the Antiquities Act within our 
community and ask that the Administration withdraw any plans to 
do so.''
    Then just yesterday Utah Governor Gary Herbert wrote a 
letter to the President in which he said, ``As evidenced by 
opposition from virtually every elected county, State and 
Federal official, the State of Utah strongly opposes any 
unilateral monument designation within our state.''
    Now this of course does not mean that the people of Utah or 
the people in San Juan County, in particular, do not care about 
the land or about protecting it. Quite the contrary, elected 
officials throughout Utah, including and especially those in 
San Juan County, have been very supportive of a three-year 
intensive effort involving the Public Lands Initiative. And 
there is a lot of support for protecting the land in this way.
    So let me just start by asking you, do you still believe 
that collaboration and local support is a necessary condition 
precedent that ought to precede any designation of a monument 
under the Antiquities Act?
    Secretary Jewell. Well Senator, the Antiquities Act is a 
very important tool that Presidents have had since Theodore 
Roosevelt. It's been used, I would argue, sparingly and 
carefully. And so, I have no ability to change the President's 
capacities to act in his own way as it relates to that.
    I will say that he's used it 22 times in his 
Administration. In every case we have had engagement on the 
ground in the communities to understand everybody's opinions. 
I've been to many of those meetings. They have never been 
unanimous, but they have also always provided a good balance.
    And so----
    Senator Lee. You have at least had widespread public 
participation. You have at least had widespread, a lot of 
support, even if it is not unanimous.
    Secretary Jewell. Well we've had public participation. I 
don't know how one defines widespread, but I will say this----
    Senator Lee. You have had some. You had some. There has 
been some widespread participation.
    Secretary Jewell. We have had some participation in the 
case of Utah. We have been invited by the tribes to go out 
there. There's a number of tribes that are very interested in 
protecting an area that you reference that has tremendous 
archeological, anthropological and cultural significance to 
them.
    They have met with me in my office. I have actually asked 
that they come over and meet with the Utah delegation, 
particularly Congressman Bishop, because of his public lands 
initiatives work.
    I've met with Congressman Bishop and Chaffetz on that. We 
had two meetings scheduled over the last couple of weeks, both 
of which they canceled because of votes which I understand.
    I will also say that what started off as an effort that 
seemed to be very collaborative is now fracturing somewhat so 
there is a lot of interest in protecting lands that people 
thought in the Public Lands Initiative would have greater 
protections than how that initial language is coming out.
    So I'll continue to meet with the delegation on this. And 
as we have interest to move additional protections in places 
like San Juan County, we will be engaging with people in those 
communities.
    Senator Lee. Okay, so I am out of time but before I stop I 
just want to make sure. Will you commit to consulting with 
Utah's local communities, Governor and our congressional 
delegation before anyone makes a final decision?
    Secretary Jewell. Well to be clear, I can't commit to 
anything with regard to the Antiquities Act because that is a 
tool of the President of the United States.
    I will commit that we will go out and spend time within the 
community and take input from the community. That is something 
that we have done every time, and we will continue to do that.
    Senator Lee. Okay. I appreciate that and I appreciate 
knowing that everywhere else the President has used this he has 
had some local buy in and we don't have that here. So I 
appreciate your commitment on that.
    Thank you, Madam Secretary.
    The Chairman. Senator Hirono?
    Senator Hirono. Thank you, Madam Chair.
    Secretary Jewell, I wanted to take a moment to thank you 
for the extraordinary commitment in protecting Hawaii's natural 
and cultural treasures in the President's budget using the Land 
and Water Conservation Fund.
    The Hakalau Forest National Wildlife Refuge and Hawaii 
Volcanoes National Park are the number one and number two land 
acquisition projects for the U.S. Fish and Wildlife Service and 
the National Park Service, respectively, in Fiscal Year 2017. 
This effort builds upon last year's commitment to fund certain 
land acquisitions highlighted in Hawaii's Island Forests at 
Risk proposal which is very important to Hawaii.
    Additionally the funding your budget provides for 
Honouliuli National Monument which, by the way, was a monument 
that was very much supported by Hawaii, our communities and the 
political leadership there, including the delegation. It is 
critical in getting things up and running so that the unique 
stories of our nation's past, and Honouliuli was a place of 
interment, can be told.
    Your attention to the unique needs in Hawaii is 
appreciated. Thank you for coming to Hawaii for that dedication 
of Honouliuli, and I want to continue working with you and your 
Department in amassing these initiatives.
    Finally, as you know, Hawaii is the state most impacted by 
our nation's compact of free association. I look forward to 
working with the Department in the coming year to ensure the 
compact impact is adequately addressed which currently it is 
not. Our country has a responsibility to meet our obligations 
under the compact with Palau, Micronesia and the Marshall 
Islands.
    I want to turn to the Regional Biosecurity Plan for 
Micronesia and Hawaii. I recently led a letter with my 
colleagues from the Hawaii delegation as well as Congresswoman 
Bordallo of Guam and Congressman Sablan to the National 
Invasive Species Council (NISC), Co-Chairs of which you are 
one. This letter requested information on NISC's plan to 
implement recommendations made within the Regional Biosecurity 
Plan, RBP, for Micronesia and Hawaii and was published in March 
2015. The Office of Insular Affairs' budget justification 
includes support for proposed action within the RBP and 
mentions increasing the Coral Reef and Natural Resources budget 
by $1 million over Fiscal Year '16 levels to augment control 
and eradication efforts for the Coconut Rhinoceros Beetle and 
the Little Fire Ant.
    This is a positive step. However, can you speak a bit on 
any additional resources the Department of the Interior intends 
to commit to implement the RBP's recommendation to manage and 
mitigate invasive species across the Pacific, an issue that is 
of such concern to Hawaii since we are very much impacted by 
invasive species?
    Secretary Jewell. Thank you, Senator.
    I'm going to talk at a high level and then turn it to Kris 
to give you specifics on numbers.
    Invasive species are a huge problem across the landscape, 
and it's particularly acute in the Islands. I was working with 
young people on eradication of the Coconut Rhinoceros Beetle, 
obviously the Brown Tree Snake is a big issue. Hawaii is kind 
of ground zero for invasive species.
    Senator Hirono. Yes.
    Secretary Jewell. So we are committed to chipping away at 
it. There's not nearly enough money to do it but we are 
continuing to prioritize including, what's the acronym rapid 
response?
    Ms. Sarri. Early----
    Secretary Jewell. Early detection and rapid response (EDRR) 
process so that we can nip these things in the bud before they 
become a problem.
    But Kris, do you have specifics on the budget number?
    Ms. Sarri. Senator, thank you for the question. And earlier 
this week we actually announced a framework for early detection 
and rapid response. The President's budget has a request of 
$1.5 million to help with EDRR projects and that could go to 
the Regional Biosecurity Effort.
    Senator Hirono. While that is a positive step, that $1.5 
million does not go far enough, that is for sure.
    Turning to the rapid Ohia death. Native forests on Hawaii 
Island are losing a keystone species at an alarming rate and 
that is the Native Ohia tree. Of course when the Native Ohia 
trees disappear then it really negatively impacts our 
watershed.
    A pathogen which causes these trees to wilt and die within 
days of showing symptoms has affected approximately 34,000 of 
our total 810,000 acres of Ohia Forest across Hawaii Island. 
That is four percent of our Native Ohia Forest, slightly 
smaller than the size of Washington, DC, and it is more than 
twice the impacted area observed in 2014. This problem is 
rapidly escalating, and right now the pathogen is contained to 
Hawaii Island, but the potential to impact our Native Ohia 
Forests across the state is there.
    I know that in the USGS Fiscal Year 2017 budget there is 
mention of rapid Ohia death and the agency's plan to develop 
models and genetic essays to address the pathogen. I also know 
that the USGS invasive species research budget is, as you 
mentioned, receiving additional sums.
    I am sorry, Madam Chair, may I continue? I am over my time. 
I think I need, maybe, another ten seconds, 15 seconds.
    The Chairman. Okay.
    Senator Hirono. The addition of your Department-wide budget 
provides $2.4 million over Fiscal Year '16 levels for early 
detection and rapid response. Given the emerging threat that 
the rapid Ohia death is posing to our native forests on Hawaii 
Island and the potential to spread to the remaining islands, 
could these additional research and EDRR funds be used to help 
address the rapid Ohia death in Hawaii, in particular?
    Secretary Jewell. And I'll have to get back to you with 
that question. As we pointed out earlier there's just nowhere 
near enough money to address the invasive species challenge. So 
whether we could take a limited amount more and put it over 
there I don't know. But thanks for putting it on the radar, and 
we'll get back to you.
    Senator Hirono. Thank you, and we will continue our dialog.
    Secretary Jewell. Okay.
    Senator Hirono. Thank you, Madam Chair.
    The Chairman. Senator Daines?
    Senator Daines. Thank you, Madam Chair.
    First of all, Secretary Jewell, I want to commend you and 
your Department for recognizing the value of the Land and Water 
Conservation Fund, both to our country as well as to Montana. 
Some of these importantly locally supported projects are ranked 
high in your budget proposal, and I will do all I can to 
support robust funding through LWCF throughout this process.
    I also want to commend your Department for recommending a 
slightly, slightly higher level of funding for the Bureau of 
Reclamation Rural Water projects. Senator Franken earlier, I 
think, requested that we re-look at that. I still think the 
recommended level is too low. It is well below the enacted 
level. As we chat with tribes, particularly, as well as rural 
communities across Montana, it is very, very important and it 
would certainly help Congress in the appropriations process, 
speaking as a member of the Appropriations Committee, if a 
department prioritized this funding better in its budget.
    But I want to transition to the issue, I think, Senator 
Barrasso brought up on coal leasing. In Montana we do see the 
moratorium on coal leasing as a direct assault on our state. 
Our state relies on production of coal, including Federal coal, 
to support our state's essential services. Montana tribes like 
the Crow Tribe rely on coal production to fund its tribal 
essential services. Coal creates good paying Union and Tribal 
jobs and also, very importantly, affordable electricity prices.
    Yet this Administration seems committed to taking that 
lifeline away combined with the EPA power plan. Now with this 
moratorium on the coal leasing program, it is creating a 
significant problem for a Montanan factor crisis at 7,000 jobs, 
$500 million of economic activity and $140 million in tax 
revenues that go to our schools, our teachers, our 
infrastructure. In fact, the University of Montana put out a 
study that suggests this would be the most significant economic 
impact to hit Montana in over 30 years.
    Now I support ensuring the taxpayers receive their fair 
share of the revenues. I am not here to argue or make that 
point. However, we must be careful to not make producing 
Federal coal completely uneconomical, a reality that is 
dangerously close under this Administration's halt on coal 
leasing and if not inevitable if our states and our tribes are 
left out of the process.
    So the question is without discussing the merits of the 
environmental review and the moratorium itself, having done 
some due diligence I have been told that up to two years is 
very generous. It is realistic, and it is a well-placed 
timeline to complete a programmatic review. So given that why 
do we think three years is necessary for this programmatic 
review?
    Secretary Jewell. Well thank you very much for the 
question.
    If we could do a programmatic environmental impact 
statement in two years that would be terrific. The pause on new 
leases on coal, with certain exceptions, only applies until the 
programmatic EIS is completed. So if it can be done faster we 
will certainly do it faster, but based on our experience for 
programmatic EISs, they do take, typically, around three years.
    Can I also say that we did have, we do have, about 20 years 
of supply already under lease based on current production 
levels. And as production level comes down those may last 
longer. And we did put exceptions in place so that no mine 
should close, no plant should close. There's emergency 
exceptions to do that as well as grandfathering in projects 
that had a signed record of decision that were close to the 
end.
    So in terms of the reference to coal jobs and ongoing coal 
production, we do not believe there will be an impact. And 
we've made provisions for those individual circumstances where 
there might be.
    Senator Daines. On the three-year question, could you 
commit to us though that the review will not take any longer 
than three years?
    Without some kind of accountability or commitment here, who 
is to say it is not going to take even longer than three years? 
I mean it looks like you have got a commitment saying it will 
not exceed three years, and I think arguably it could be two 
years.
    Secretary Jewell. Well sir, my position will end here in 11 
months, so I can't commit to my successor on a timeframe. But I 
can reassure you that we will complete this as quickly as we 
possibly can. My goal is to have an interim report out that 
clearly defines the scope and gets us on a clear path forward 
with a timeline by the time I'm out of this job.
    Senator Daines. Let me ask, and I recognize there is a time 
domain here on the limits about what happens after January 
2017, but what are the consequences? Who is held accountable if 
it goes three years and one day? What happens if you go past 
the timeline?
    I came from being the private sector 20 years. If you miss 
your timelines, there is a big issue with that. What happens if 
they go beyond three years?
    Secretary Jewell. The pause is tied to getting the PEIS 
done. If it's done quicker, the pause ends. If it goes longer, 
the pause continues.
    And if you look at the times that this has been done before 
and we modeled our pause on the, what had happened in prior 
administrations. In some cases, it took something like six or 
seven years. In other cases, it may have been shorter.
    So three years is not a fixed timeline. It's tied to the 
programmatic EIS. So the more cooperation we get, the quicker 
we'll get it done. And my intent is to get a clear timeline 
done before I'm finished.
    Senator Daines. My last question is are you seeking the 
advice and analysis of impacted states and the tribes, like 
Montana, like Wyoming, like the Crow, like the Navajo, like the 
Hopi and other interested stakeholders regarding Federal 
mineral policies that are related to royalties and leasing? My 
concern is to shorten the timeline and we talked about it, but 
are we getting the input?
    Secretary Jewell. Yeah.
    Senator Daines. From those who will be affected the most, 
the tribes and the states?
    Secretary Jewell. May I answer quickly, Madam Chairman?
    The Chairman. Quickly.
    Secretary Jewell. We held six listening sessions which 
included input from states, from tribes, from individuals, coal 
producers, stakeholders on the ground, before we even decided 
to do a PEIS. So we did those, mostly in coal company--country, 
one in Washington, DC, one in Billings, Denver, Farmington, New 
Mexico and Gillette, Wyoming, to get input which really advised 
this process.
    So we will continue that openness. This is a very open 
process. We'll make sure that all of those voices are heard in 
this process.
    Senator Daines. Alright.
    Thank you, Secretary.
    Secretary Jewell. Thank you.
    The Chairman. Senator King?
    Senator King. Thank you, Madam Chair and I want to thank 
you again for inviting me to Alaska last weekend. It was a 
wonderful trip. I note that we have Alaskan glacial water 
today, and my only concern is with the retreat of the glaciers 
I do not know whether to drink it or send it to the 
Smithsonian. But it is wonderful water. Thank you for that. We 
had a great trip. I have enjoyed telling people in Maine about 
driving on a river. That was a new experience for me.
    Secretary Jewell, a quick question on the budget. The 
budget figures that are in this budget that you have submitted 
correspond to the budget caps that were negotiated two years 
ago?
    Secretary Jewell. They do.
    Senator King. So it is all within that. There's no 
additional spending that assumes a new revenue or anything? It 
is within those caps that were negotiated, the President and 
the leadership?
    Ms. Sarri. The discretionary number is within the budget 
deal.
    Senator King. Okay.
    Second, Secretary Jewell, I want to really thank you and 
thank the National Park Service for the work on the online park 
pass. If you will remember I made myself obnoxious at a meeting 
about a year ago which my friends tell me is a skill that I 
have, and your Department reacted. There is a pilot program 
being announced in the next week or so for online National Park 
passes. I think it is going to work. Interestingly enough, one 
of the first pilots is at Acadia in Maine. I thank you for 
that. Hopefully that will increase revenues and access to the 
park, so I really appreciate the quick response and very 
thoughtful one on that issue.
    On the backlog issue, this is important because it has 
become a, kind of, political lightning rod. How is the backlog 
built? Who determined? Where did the numbers come from park by 
park? First question.
    Secretary Jewell. Kris, do you want to answer that?
    Ms. Sarri. Our Bureaus all--both, whether it's Parks or 
Fish and Wildlife Service, do surveys across the parks and 
their properties and develop a prioritized list in terms of 
backlogs and deferred maintenance that they have.
    Senator King. Is there any third party validation or is 
this--I'm not trying to use pejorative terms but where does 
backlog end and wish list start? In other words, how do you 
define what the elements are and is there anybody else that 
looks at it and says, oh yes, that really is a maintenance 
backlog as opposed to something a park manager might like to 
have? Do you see my question?
    Ms. Sarri. Yes, I do.
    I think I'd probably want to get a little bit back to you 
more on the record after having a chance to talk with the 
Bureaus.
    But they go through a pretty thorough vetting process that 
is ranked against criteria so they can understand, kind of, 
what their needs are with parks.
    I mean, unfortunately we have buildings that we have to 
maintain to certain health and safety standards, and so they're 
always looking at those type of measures.
    Senator King. Would the backlog, if I looked at it, be 
prioritized by seriousness and health and safety versus other 
criteria?
    Ms. Sarri. Yes, they develop a prioritized list. And like I 
said, I think with the Bureaus, they look at them somewhat 
differently. So I'd like to get back to you more on the record 
to make sure I'm providing accurate information.
    Senator King. And what percentage of the backlog is roads 
as opposed to buildings, sewer systems, those kinds of things?
    Secretary Jewell. It's about half.
    Senator King. About half is roads.
    Secretary Jewell. About half of it is roads, right, which 
typically is largely taken care of through transportation.
    Senator King. Well that was what I was going to ask, is 
there any help on the way from the Highway bill that was passed 
this past winter?
    Secretary Jewell. There is help on the way. The passage of 
the Highway bill is enormously important to roads, not only in 
National Parks, but Indian reservations and so on, as well.
    What that bill does not do is specific large projects, like 
for example, the Memorial Bridge which in and of itself is $250 
million. There is not money earmarked for the National Park 
Service which has that bridge and is responsible for its 
maintenance through that so that would require separate 
supporter legislation to address.
    Senator King. Okay.
    But there is a significance so the backlog is roughly 50 
percent roads and there will be significant assistance coming 
so it is not quite as daunting as it originally----
    Secretary Jewell. No, that's correct. It's still a $6 
billion number, roughly $6 billion is daunting in terms of the 
facilities relative to the Park Service budget, but the roads 
are helped through this.
    Senator King. Just for the record, this is not a case of 
the Park Service not asking for this money, it is a case of it 
not being appropriated by an organization which will remain 
nameless.
    Secretary Jewell. That's correct.
    Senator King. Thank you.
    I just want to end by thanking you for the work with the 
National Parks and particularly as we enter this 100th year. I 
understand that part of the President's budget talks about or 
focuses on the Centennial and the ability to raise private 
funds. Could you end my time on that part of this budget?
    Secretary Jewell. Madam Chairman, do you mind if I just do 
this quickly?
    The Chairman. Go ahead.
    Secretary Jewell. So we have in the discretionary part of 
the budget, a significant increase. I think it's a $20 million 
increase in the matching fund program to $30 or $35 million. 
And then in addition to that, we have $100 million in a 
mandatory fund which would require a congressional action to be 
a match with private philanthropy.
    The National Park Foundation just announced a, I think $350 
million capital campaign. They are well on their way, over $200 
million raised as we announced another generous grant from 
David Rubenstein to fix up the Lincoln Memorial. He has been 
extraordinarily generous. But there's a lot of individuals out 
there that would like to provide support but they also would 
like to see the Federal Government have skin in the game.
    So there is an increase on the discretionary side of the 
budget and recommended in the mandatory portion that would 
increase that Centennial match and drive additional 
philanthropy that is very helpful to the National Park Service.
    Senator King. Thank you very much.
    Secretary Jewell. Thank you.
    Senator King. Thank you, Madam Chair.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Madam Chair. And thank you, 
Secretary Jewell, for your time and testimony today.
    I want to thank you as well for your participation in 
making the celebration of Rocky Mountain National Park's 
Centennial a very great year. Last year, 2015, we set record 
attendance again at Rocky Mountain. I think had a 21 percent 
increase in attendance in 2015 over the prior year. So people 
continue to enjoy Rocky Mountain National Park and all that it 
has to offer in year 2016 and beyond. Thank you for making that 
special.
    I also want to thank you for your work at the Colowyo Mine 
this past year. It is a significant challenge, as you know. You 
held a meeting in Northwestern Colorado, meeting with local 
participants to understand the unfortunate outcome of the court 
decision out there. It is too bad that it went to that point, 
but the fact is I appreciate you working with local communities 
and others to make that mine continuing to be a part of the 
future of Northwestern Colorado and also your diligence, 
continued diligence, on Trapper Mine. I thank you. I know there 
is some work still to be cut out there but, you know Western 
Colorado when we have coal layoffs and natural gas cutbacks, 
and the last thing it needs is another double whammy of 
Federally-induced setbacks. So thank you very much for your 
work with the Colowyo and Trapper Mines.
    I also want to, again, commend you for your work on the 
Land and Water Conservation Fund. I have been part of an effort 
to make sure that it is permanently authorized. There were a 
couple of projects in Colorado, like the Cascade Cottages 
project, Rocky Mountain National Park, within Rocky Mountain 
National Park and the Sanberg acquisition near the Black Canyon 
of the Gunnison National Park that did not get funded in the 
Department's budget this year.
    I would just like to know what we can do to try to make 
sure that that is funded somehow, if you will consider LWCF 
that is unspent or how you will consider these projects in the 
future. I certainly would just advocate that those projects be 
considered. I do not know if you would like to comment on those 
at all or?
    Secretary Jewell. Well I'll just say that we know they're 
very important projects. We've had several others referenced 
today that people would like support for.
    I want to thank you for your support for LWCF. It's 
bipartisan support. The Chair and Ranking Member of the 
Committee have recognized that. We would like to see full 
funding and then a lot of these items, the list is very long, 
would get done. And certainly we can pass along your interest 
in those two projects to the Park Service as it evaluates any 
money that might become available, but it's very tough each 
year because there's never enough money for the really, very 
important projects that are out there.
    Senator Gardner. Thank you.
    Returning to the Arkansas Valley Conduit, Mr. Connor and I 
have had many conversations about the Arkansas Valley Conduit. 
I just want to talk about its importance.
    This was first authorized in the 1960s under President 
Kennedy. Over the past several years we have put $1 million or 
$2 million behind it. I believe the commitment now is $3 
million, $2 million for Fiscal Year 2016, $3 million for Fiscal 
Year 2017. I thank you for your commitment to this project. 
Will the Department of the Interior, Bureau of Reclamation 
continue to make the funding commitments necessary to get 
construction on this critical project underway?
    Mr. Connor. Senator, thank you for the question, and thank 
you for your support for moving forward with the Arkansas 
Valley Conduit. It's been very helpful as we've tried to 
provide a base level of funding at slightly higher levels than 
we had previously. And you've seen that now with our '17 budget 
and the additional resources we put in '16 through this 
Reclamation spending plan.
    I think we want to maintain a certain level of funding to 
complete the preconstruction work that needs to be done, and 
then I think we need to work with the sponsors, the community, 
local communities, on how we will continue to support moving 
forward with construction but look for other resources that 
exist.
    I know they have reached out to the state and secured a 
loan to begin funding. We have a Natural Resource Investment 
Center that we created last year that we've just hired a new 
Executive Director for. This is a high priority for us to put 
together a comprehensive plan to look for, not just the next 
couple of years, but more long-term, how we can work with the 
communities and get this project funded.
    Senator Gardner. Thanks, Mr. Connor.
    I know my office has been in communication with the Bureau 
of Reclamation regarding potential revisions to the current 
funding mechanism for the project so that we can maximize the 
use of miscellaneous revenues when funding the project. Will 
you commit to continue working with us for the long-term 
funding mechanism in the project so that we can make sure we 
are using the optimum use of the miscellaneous revenues?
    Mr. Connor. Absolutely. That's a very good plan that 
creates more budget space, so it's going to be a number of 
ideas like that. But we'll continue to work with you.
    Senator Gardner. Thank you.
    A couple of quick questions.
    I know Senator Barrasso touched briefly on the question of 
the BLM venting and flaring rule. Do you know if you will be 
perhaps extending the public comment period on that rule, on 
the venting and flaring rule at BLM?
    Secretary Jewell. Well I think at this point we intend to 
stick with the schedule the way it is.
    Senator Gardner. You have given, excuse me, you have given 
it. That is correct, I believe, right?
    Secretary Jewell. Yes.
    Senator Gardner. Okay.
    Secretary Jewell. Well, I'm not sure. Do you know if we, 
did we extend the period?
    Mr. Connor. I'm not sure----
    Secretary Jewell. On the venting and flaring?
    Yes, we'll have to get back to you. I'm sorry.
    Senator Gardner. Okay.
    Secretary Jewell. It's probably in my notebook here. I can 
find it, yes.
    Senator Gardner. I think it is 60 days to comment. Of 
course it is a very complex rule, and we hope that you would 
consider extending it if that is something that you could get 
back to us. That would be great.
    Senator Gardner. Just a final question here. Are you aware 
of any considerations for land acquisitions or land 
designations through the Antiquity Act or other acts that are 
currently being discussed? If so, what and when, particularly 
as it relates to Colorado?
    Secretary Jewell. I don't have a list of items that, you 
know, are lined up to be Antiquities Act. That's obviously 
something that rests with the President.
    There are a number of groups and individuals and elected 
officials that bring things to our attention where they would 
like to see a designation.
    Senator Gardner. But you are unaware of any consideration 
being made on specific locations in Colorado?
    Secretary Jewell. I can't think of any. We did the Browns 
Canyon, obviously.
    Senator Gardner. Right.
    Secretary Jewell. That was important. I can't think of any 
others off the top of my head.
    Senator Gardner. Well if you would just, perhaps, go back 
and talk to staff and relay to us if there are considerations 
that are underway and designations in Colorado, that would be 
great.
    Thank you.
    Secretary Jewell. Okay.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    I wanted to go back to the coal issue. I have listened with 
interest to my colleagues' questions, and certainly I do not 
think there is anything in Federal statute that mandates that 
the Federal Government lease a certain amount of coal off of 
Federal lands. I do not think there is any mandate there.
    I definitely think that there is a mandate that we make 
sure that we do an environmental impact statement, and the fact 
that we have not done one in 37 years is quite astounding to 
me. But I think I learned a lot about our Minerals Management 
Agency after the Deepwater Horizon program and a lot of holes 
in our process. The fact that we have not done something here 
in 37 years, I think, is another issue of the bright light of 
day being shown on the agency and making sure we do things in 
an orderly fashion. So as I said in my opening statement, I 
applaud you for taking this action here. I think it is 
critically important.
    Another related issue is the same scrutiny that I think 
that we need in the state reclamation programs and the issue of 
their acceptance of self-bonding. You know, we have had our own 
impacts in Washington State and backyards in Tacoma, 
Washington, after they had been dug up or left when somebody 
went bankrupt and literally walked off the job. I am very 
concerned with how states are applying these self-bonding 
issues. How do we know they even have the resources? So now we 
are having these bankruptcy court issues and the law does not 
say we must accept self-bonds, and these self-bondings are not 
working. How are we making sure that the taxpayer is not left 
on the hook? Do you think these self-bondings are working or do 
they present a problem and a risk to the taxpayer?
    Secretary Jewell. I think there's a very significant 
potential problem and risk to the taxpayer with the pretty high 
profile bankruptcies that have taken place recently with coal 
companies.
    I'll say that there's different ways that states handle 
bonding. Largely in the Appalachian states they have companies 
pay into a bond fund, like an insurance policy. And so they 
have the capacity to cover when some companies go bankrupt. In 
other states, like Wyoming, for example, they allow self-
bonding. And with some of these recent bankruptcies we have 
seen a negotiation between the state and the company that the 
Office of Surface Mining Reclamation Enforcement find of 
concern with regard to what, we believe, the liability is to 
clean up the mines relative to the amount that's been accepted 
by the state.
    So we have issued ten-day notices which is a tool that we 
have to put the state on notice that we believe that what they 
have accepted, in terms of self-bonding, is inadequate relative 
to the clean-up liability. And that has been done now, not just 
in Wyoming, but in multiple states as we've seen an 
acceleration of bankruptcies with some of the large companies, 
Arch, Alpha and Peabody, or not Peabody, but Arch and Alpha so 
far. I will say even in Appalachia where they have more of an 
insurance plan, there is no question that there's very 
significant reclamation liability that we are concerned with 
there. So this is a very topical issue and something that is 
getting a lot of our attention.
    Senator Cantwell. Well, I hope so. I mean because they 
would not have even gotten a permit in the first place. They 
are getting it based on a reclamation bond that is not worth 
anything. They would not even have gotten the permit, right, if 
you knew up front that the value was zero?
    Secretary Jewell. They wouldn't have been self-bonded. They 
would have been required to come up with an outside bond in 
order to cover their liability.
    Senator Cantwell. Well the more I learn about this, the 
more I think representing the taxpayer here--and actually I did 
not hear my colleague say that they did not want the taxpayer 
represented. So I think these are key issues, making sure that 
the public is not left with a cleanup of pollution as coal 
companies go bankrupt and making sure that the taxpayer also 
gets a fair share is part of our responsibility of leasing on 
Federal lands. There is nothing that says in the law that we 
have to lease this amount?
    Secretary Jewell. Correct.
    Senator Cantwell. Right. But it certainly says we need to 
pay for and make sure that the environment is protected as we 
do so, so I think it is astounding to find out that 40 percent 
of our coal comes off of these Federal lands and yet we do not 
even have an updated system to make sure the taxpayer is 
protected. I appreciate your leadership on that. Is there 
something we should be doing right now in clarifying about the 
self-bonds and making sure that there are real resources behind 
protecting the taxpayer?
    Secretary Jewell. Well I think that your scrutiny, 
transparency of the situation and increased visibility is very 
important for taxpayers to understand.
    I'll also say that we are taking action through the tools 
that we have with the Office of Surface Mining. There are 
surety bonding companies that are willing to sign up and 
provide bonds for these companies that are in bankruptcy. These 
are things that certainly it changes the economics because you 
do pay for these bonds but we believe that those alternatives 
should absolutely be considered. And we'd like to have good 
cooperation with the states as we go through this so that 
neither the states nor the Federal Government and the taxpayers 
get to end up holding the bag, as we do, with abandoned mine 
lands on hard rock mining where we don't have this capacity. 
Hence, huge problems in the hard rock area that the taxpayer 
right now is the only place to go to clean up.
    Senator Cantwell. Thank you, Madam Chair.
    Secretary Jewell. Thank you.
    The Chairman. Senator Portman?
    Senator Portman. Thank you, Madam Chair. I appreciate it.
    Secretary Jewell, thanks for being before us again. I want 
to talk to you about a couple of topics quickly.
    First, of course, is the National Parks. This is the 
Centennial year, as my colleague from Maine talked about. In 
fact, on August 25th we celebrate the 100th year anniversary of 
our National Parks. We are working on Centennial legislation, 
as you know, with you and with others. Ranking Member Cantwell, 
Chairman Murkowski and I introduced an amendment to the energy 
bill that talks about how we can properly celebrate the 
centennial, including providing additional resources for the 
National Parks going forward. I appreciate working with Senator 
Cantwell on that legislation.
    There has been discussion about whether or not there really 
is enough interest out there in the private sector to have a 
centennial match. As you know this is something that I have 
been working on since my days at OMB, going back a decade. I 
strongly believe that this is a way for us to not only 
incentivize the private sector to do more but specifically to 
get them more engaged and involved with the parks and to really 
leverage that private sector help.
    So I would ask you this question. Over the last couple 
years Congress has appropriated a little bit of money into the 
Centennial Challenge. We do not have an authorization for it, 
but the appropriators have gone ahead and made some 
commitments, which I appreciate. In FY'15 it was $10 million. 
In FY'16 it was $15 million. So that is $25 million. What was 
the match from the private entities over the past two years 
with these appropriations for the Centennial Challenge?
    Secretary Jewell. I'll have to look up the exact number.
    Secretary Jewell. We don't have it but the fact is that the 
National Park Foundation has just announced its Centennial 
Capital Campaign at $350 million, and they have already raised 
well over $250 million. Certainly, that has been inspired by 
support from Congress and the Federal Government willing to put 
skin in the game.
    We can look specifically at which of those projects were 
matched, but I can guarantee you they were more than a dollar 
for dollar match on multiple.
    Senator Portman. They were more than a dollar for dollar. 
They were more like two to one or more.
    Secretary Jewell. Yes.
    Senator Portman. In the private sector. So the answer is an 
unequivocal, yes. They were matched.
    Secretary Jewell. Yes.
    Senator Portman. In fact, they were overmatched. Also, as 
you say, you took away my thunder there, the National Parks 
Foundation has just started their $350 million campaign which 
is non-Federal, private donations. So I think there is a 
tremendous appetite out there.
    I know you agree with me on that having been from the 
private sector yourself and probably your former company would 
be one of those companies interested in being involved and 
engaged in helping our parks.
    Secretary Jewell. They've already committed $5 million.
    Senator Portman. I like that. I am sure they would be doing 
even more if you were still at the head.
    I just think this is a great opportunity for us, and I 
think if we take too long to get this out there and get this 
moving, we are going to miss this opportunity.
    So I encourage you to continue to work with us. The 
Administration has a proposal out there that is very expensive, 
well over $1 billion, but not paid for. We are going to have to 
pay for it here. We want to have something that is practical, 
that can get done, but really help the parks and can leverage 
that private sector money. I know you are, again, personally 
committed to that and I look forward to working with you on 
that going forward.
    The second topic I have for you is about the Office of 
Surface Mining Reclamation Enforcement's Stream Protection 
Rule. This is one you might want to talk about less eagerly 
than the national parks, but it is one that concerns me a lot. 
It concerns me because my sense is you are not working with the 
local stakeholders. I hear this from my State of Ohio where, as 
you know, we have a considerable interest in this potential 
change in terms of the Stream Protection Rules and what impacts 
it is going to have on jobs.
    The Office of Surface Mining themselves talk about this 
having a cost of over $15 million annual compliance cost, coal 
production being reduced dramatically, 1.9 million tons a year, 
41 to 590 jobs annually. These numbers are a lot lower, as you 
know, than those by independent sources which were even worse 
for Ohio. According to the communication I am getting from my 
folks in the State of Ohio, there has not been the kind of 
communication you would expect with state and operating 
agencies regarding the rule.
    Given so many states have publicly expressed disappointment 
with the lack of engagement so far, I would ask you will OSM, 
the Office of Surface Mining, re-engage with the states, such 
as Ohio, in the rulemaking process to ensure any final rule is 
practical and reasonable?
    Secretary Jewell. Senator, the OSM is engaging the states 
at this point, and now that the rule is out there and the 
states are reviewing it we'd welcome that input. And we 
absolutely would welcome specific input from the State of Ohio. 
I know that it was very important to get a rule out and across 
the finish line. States were engaged early, that input was 
taken, a rule was put on the table, and we'd welcome that input 
and you certainly have my commitment to do that.
    Senator Portman. Okay.
    We were told OSM has not reached out proactively to the 
Ohio Department of Natural Resources. I do believe you are 
going to see a formal request coming from them very soon for 
you to engage with them as you are required to do under the 
Omnibus. As you know in December, there was a law passed that 
says you have to re-engage with states in a ``meaningful manner 
prior to the final rulemaking if requested by the states.'' You 
are going to get that request from Ohio, I will tell you. If 
states request more information, how are you going to carry out 
in a meaningful manner providing the documents and data in a 
timely fashion? So I assume that you are going to comply with 
that legislation.
    Secretary Jewell. Certainly we will comply with the 
legislation. I also want to say that on December 2, 2015 the 
Ohio Department of Natural Resources did have a telephone 
conference with Joe Pizarchik, who heads the Office of Surface 
Mining. That was with the Ohio Division of Mineral Resources 
Management Chief, Lanny Erdos. So we have had those meetings 
and we will continue to have those meetings and certainly 
comply with all legislation.
    Senator Portman. Well they are going to request additional 
meetings at even a higher level, as I understand it. They are 
in town this week, and I appreciate your commitment to do so.
    Thank you, Madam Chair.
    The Chairman. Senator Flake?
    Senator Flake. Thank you, Madam Chair.
    As you know, Secretary Jewell, water is never far from the 
mind of anybody in Arizona. I want to thank the Bureau of 
Reclamation, particularly Commissioner Lopez and his staff, for 
the efforts to support the Colorado River Basin Contingency 
Drought Plan.
    Additionally, I have been pleased to see efforts throughout 
the basin to implement the Colorado River System Conservation 
Pilot Program. This is a priority, obviously, for Arizona. I 
commend the Bureau of Reclamation also for dedicating $5 
million of their Fiscal Year 2016 appropriation to expand the 
program.
    Can you give us an update, you or Mr. Connor, of the status 
of the system conservation program including the number of 
projects funded and the effect on the reservoir levels?
    Mr. Connor. Yes, Senator.
    Thank you for the question and thanks to the State of 
Arizona. I think they'd be, Reclamation would be, equally 
complementary. This has been a very productive partnership, 
particularly with the lower basin states.
    So far of the $11 million that was allocated for the System 
Conservation Pilot in '15, $8.25 million was allocated for 
lower basin projects. I think they've selected six projects, 
and those are projected to save about 64,000 acre feet of water 
when they're completed. The balance of that funding will go for 
upper basin projects and then, as you stated, based on the 
success and the quality of the project so far, reclamation 
allocated another $5 million toward that effort.
    Overall, you know, this is in context to an MOU where the 
states are looking at, you know, close to a million acre feet 
over the next five plus years. And given the projections in the 
Colorado River Basin, that's something that they need to be 
pursuing. The challenges keep increasing in the basin. The 
projections that were developed in 2008 are already no longer 
valid. The challenges are greatly increasing as far as 
reservoir levels in Lake Mead. So we're going to have to build 
upon this System Conservation Pilot.
    Senator Flake. Well thanks, Mr. Connor.
    You will recollect that on June 1st, I asked you to follow-
up on several issues surrounding the ability to withdraw and 
transport stored groundwater in Arizona having these 
arrangements in place, obviously we will be able to access 
millions of acre feet of water that we have stored underground. 
It is critical to our long-term planning. I again want to thank 
the Bureau for their recent work with the Central Arizona 
project on these wheeling arrangements.
    Can you give us some kind of update on the status of other 
discussions with tribal governments that are required to 
complete these arrangements?
    Mr. Connor. I'm not up to speed on those recent 
discussions, so I'll be happy to get back to you on the record 
for that.
    Senator Flake. Okay, thank you.
    Senator Flake. Secretary Jewell, I am told that Senator Lee 
talked about national monuments and designation and the 
importance of consultations with local and state governments. 
In this regard I just want to add my voice to his that when 
these measures are taken that these consultations are made 
prior to.
    It is extremely important for states like Arizona, Utah and 
others where the impacts on the economic viability of these 
local communities is really impacted.
    Secretary Jewell. As I said to Senator Lee, in all the 
monument designations that the President has done there has 
been outreach within local communities and meetings held on the 
ground in local communities, and we're committed to continuing 
to do that.
    Senator Flake. Thank you, Madam Chair.
    The Chairman. Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman.
    Thank you, Secretary, for appearing before our Committee 
here today.
    The first question I would like to ask is in regard to the 
Stream Protection Rule or the Stream Buffer Rule.
    Assistant Secretary Janice Schneider has agreed to come to 
North Dakota to actually get input and to see on the ground 
what our industry is doing and how they are managing water and 
why the Stream Buffer Rule is problematic. We would like for 
her to come, she originally wanted to come in the winter, in 
January or February, where you would not be able to see, 
really, the ramifications of the rule. I just want to make sure 
that we get her to come in say, May or June, when she will 
actually be able to assess the impact, and we would like your 
commitment that you would agree to that.
    Secretary Jewell. She's very happy to travel. So let us 
know when the best time of the year is, and we'll work that 
into her schedule.
    Senator Hoeven. Thank you, Madam Secretary.
    The other thing is keeping the comment period open so that 
the input that she gets from the industry, I mean, being there, 
seeing it and then getting good on the ground input is 
important. And it is important that the comment period is open 
to accommodate that.
    Secretary Jewell. Well Senator, we're really committed to 
getting this rule done during the time we're here. And so we 
would love to have people work within the comment deadlines 
that are out there to the extent possible. We certainly 
consider increases to the comment period but I will say that I 
would encourage people that have comments to get those comments 
in early.
    Senator Hoeven. Certainly. But she is going to get input 
while she is out there and that just makes sense. If you truly 
want good input, she will have an opportunity to do that. We 
would try to accommodate getting her out there in May so we are 
not talking about dragging this out, but it is important that 
we are able to comment based on her experience out there.
    Secretary Jewell. Well I think she'd get out there as soon 
as possible within the comment period. If her visit doesn't 
coincide within the context of the comment period I can't 
commit to an extension, but I will certainly make her aware of 
that concern.
    And we do take input into account after comment periods 
close. I mean, it certainly continues to influence us in any of 
these rules before we come out with a final.
    Senator Hoeven. We will try to make that work so she can be 
there on the ground within the comment period.
    Secretary Jewell. That would be great.
    Senator Hoeven. If you would make the same effort for us. 
Are you willing to do that?
    Secretary Jewell. If I can work it into my schedule. Mine 
is a little tougher than Janice's but I will----
    Senator Hoeven. No, no, I mean in terms of getting her----
    Secretary Jewell. Oh yes, absolutely, yes.
    Senator Hoeven. The time frame open. We will try to work so 
that we can match the two.
    Secretary Jewell. Yes.
    Senator Hoeven. Okay, thanks.
    The second thing I wanted to ask about is there are two 
coal leases. One that is pending back to 2011, that is with BNI 
Coal, and then there is another one that has been pending since 
2013. Two coal leases, and the second one is with North 
American Coal.
    Now BLM has considered both these grandfathered relative to 
the three-year moratorium. So I just want your assurances that 
you will work with BLM to continue to see if we can get 
agreement on those coal leases as they have said that they 
would work to do and not make them subject to the three-year 
moratorium.
    Secretary Jewell. If they were on the BLM's list which we 
published on the website as being grandfathered, then the BLM 
has every intention of going through with that and so do I.
    Senator Hoeven. Good, Okay, good.
    My final question relates to the BLM permitting pilot 
project. Now this is legislation I think Senator Barrasso was a 
prime sponsor, I think the Chairman, myself, a number of us 
were on this bill, and it passed.
    It is the BLM Permitting Pilot Project. Essentially what it 
allowed, and you may recall, but just in case, it allowed that 
applications for permits to drill were backed up and taking a 
long time to get approval. So essentially what this pilot 
project allowed is that BLM could increase the fee that they 
charge for an APD from $6,500 per APD to $9,500. And the idea 
was that additional $3,000 per permit was to go to getting the 
permit done more quickly. But instead the BLM in DC has 
decreased general fund appropriation out to the BLM Office. So 
they have offset the funding that comes from these drilling 
permit applications.
    That money was supposed to go to expedite the process, and 
instead it has been offset so that the permittee is getting 
charged but they are not getting the benefit that they were 
supposed to get from the higher fee, from the $9,500 instead of 
$6,500. This is important because that was not the intent of 
the legislation. I would ask that you would look into this and 
make sure that the intent of that legislation is honored.
    Secretary Jewell. Yes, the characterization you're giving 
is different than my understanding. So let us get back and 
maybe drill into specifically what you're asking and get you a 
solid response.
    I know that we are very committed to streamlining the way 
we do our permitting, to doing increased automation which is 
part of the budget request.
    We've also requested fees from the industry on shore to 
help offset the cost that we actually incur in both permitting 
and in inspections.
    So if we can get back to you with a little more detail on 
that I think that would be better than me trying to respond 
right now.
    Senator Hoeven. That would be fine.
    Secretary Jewell. Thank you.
    Senator Hoeven. And I appreciate your looking into it.
    Senator Hoeven. Thank you, Madam Secretary.
    Secretary Jewell. Thank you.
    Senator Hoeven. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Hoeven.
    Secretary, I mentioned in my opening my concern about the 
King Cove road and the fact that today is 26 months to the day 
that you have rejected this ten mile, one lane, graveled, non-
commercial use road. We keep count of that because it is 
important to the people of that region.The other thing that we 
keep count of is how many Medevacs have occurred from King Cove 
since the rejection of the road.
    Last year I asked you if you were aware how many Medevacs 
had been required since the time you rejected the road. I would 
ask you the question again this morning, if you are aware as to 
how many Medevacs, both Coast Guard and non-Coast Guard, have 
actually gone into King Cove since December 23rd of 2013?
    Secretary Jewell. I don't have the number, Senator, but I 
am sure that it is dozens of them.
    The Chairman. The number is 39 total, 14 by the Coast Guard 
which is unacceptable by anyone's standards.
    I understand that Interior commissioned a study that was 
completed last year by the Army Corps. You again looked at the 
use of marine vessel helicopter or perhaps building a new 
airport, alternatives, all of which have been reviewed in the 
past. They have been deemed impractical, unaffordable, 
particularly when you put it up against, again, a one lane, 
gravel, non-commercial use road. So the question to you this 
morning is whether or not you have publicly released that 
report and whether the people of King Cove were actually 
consulted as that core report was developed?
    Secretary Jewell. The team is telling me we have not 
released the report publicly.
    The Chairman. Will you?
    Secretary Jewell. I don't see any reason why not.
    The Chairman. Okay. We would look forward to the release of 
that.
    [The information referred to follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

    And were the people of King Cove consulted as that report 
was being prepared?
    Secretary Jewell. I'd have to go back and check with the 
Army Corps. I don't know the answer to that off the top of my 
head.
    The Chairman. Okay, if you can get us an answer to that as 
well.
    [The information referred to follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
   
   
    The Chairman. And then, as I mentioned, you promised that 
you would work to address the situation of the people in King 
Cove. I do not see anything in this FY'17 budget to actually 
implement any of the ideas that were contained in the study of 
these alternatives.
    So the question this morning is whether or not you are 
planning on doing anything in this year or is this a situation 
where you basically just run the clock and you leave the people 
of King Cove hanging?
    Secretary Jewell. Senator, I have no intention of leaving 
the people of King Cove hanging, and I would be delighted to 
work with you on a marine-based solution that was identified in 
the Army Corps report.
    As you and I have talked and I know it is unlikely we're 
going to agree on this point, I do not believe it is 
appropriate to run a road through this very sensitive 
wilderness area and wildlife refuge that is a very narrow 
isthmus that was set aside, originally in the 40s, and made 
wilderness in the 80s and is an area of international 
environmental concern that the wildlife biologists agree would 
be really severely damaged by a single lane, gravel road.
    And so----
    The Chairman. A ten mile, one lane, gravel, non-commercial 
use road.
    Secretary Jewell. Correct.
    The Chairman. In an area that has seen road traffic since 
World War II. What we are asking for the people of King Cove is 
a lifesaving access to an all-weather airport that is an 
affordable solution as opposed to the alternatives that have 
been considered over the years and rejected as either 
unsustainable, unaffordable or just completely impractical.
    Let me ask a question about the Fortymile area. This is 
actually the draft Eastern Interior Resource Management Plan 
and its designation of about 700,000 acres of the Fortymile 
River Mining District being designated as or identified as 
areas of critical environmental concern where the Department is 
considering closing the area to mining.
    This was an area that was specifically kept open to mining 
by Congress under ANILCA when it was not included in the Yukon 
Charlie National Preserve. There are a host of concerns about 
these new regs that we are seeing coming out. I mentioned that 
these are the Reclamation cost estimates, Reclamation 
standards, new bonding processes and the turnover in our 
compliance staff making consistency with enforcement really 
challenging.
    The budget notes that resource management plans provide the 
basis and this is a quote here, ``Provide the basis for every 
BLM management action and are necessitated by changes in 
resource use and demands.''
    So the question for this area in the Interior is what 
changes in resources and the demands then in this Fortymile 
region necessitate this nearly 700,000 acre of Environmental 
Concern Management Plan? It is not just the Fortymile. It is 
the resource management plans for the Central Yukon. Again, 
where we are seeing these resource, these changes in resource 
use and demands that have somehow necessitated these actions 
within both the Interior, the Eastern Interior resource 
management plan and the Central Yukon and the Bering Sea 
Western Interior.
    We have had these conversations where you have folks out in 
the region, they have said we have been working as a small 
placer miner operating for decades. Tell me where the changes 
are that all of a sudden make this, ``an area of critical 
environmental concern,'' that are not only limiting access and 
opportunity but potentially just shutting it all down.
    Secretary Jewell. Well Senator, with regards to the, 
specifically the Fortymile area Resource Management Plan, I've 
not reviewed it, nor had any input with the Alaska State Office 
for the BLM. So, I will----
    The Chairman. I would ask you if you could, Madam 
Secretary, because again, 700,000 acres. It pretty much takes 
your breath away.
    Secretary Jewell. So I certainly will follow-up. But I will 
say this, that we are, we change our knowledge over time. We 
get better science. We understand the landscapes better. We 
understand the impact on the environment from historic uses and 
activities. And so, they are intended to be documents that are 
updated with current information.
    I will look specifically into that and will get back to you 
with what changed on the landscape, how our knowledge changed, 
that resulted in the recommendations they have in that R and D.
    The Chairman. And then if you could also look to what 
specific efforts BLM is making to ensure that the miners are 
apprised of what their obligations may be under your new 
enforcement procedures because it is not right. It is not 
appropriate that there is now, kind of, the waving of the wand, 
there is a new designation. And all of a sudden a small 
operator, who has been out there with his family for the past 
25 years, you have regulators coming in saying you are in 
violation of all of this and we are going to slap you with a 
fine. So I would like to know what kind of outreach, what kind 
of communication is going on between BLM and those that are 
working out in the region. So if you can back to me on that one 
as well.
    Secretary Jewell. We will.
    The Chairman. My last question for you this morning relates 
to the five-year OCS plan. You released the draft five-year 
plan over a year ago. That was actually last January.
    We are sitting here with 2017 just now ten months away, so 
the question to you is when does Interior plan to release the 
final five-year plan?
    Secretary Jewell. So there's another bite at the apple. The 
draft proposed plan, as you pointed out, was released about a 
year ago. The proposed plan will be released in the coming 
weeks. I don't have a specific date for you, but it will be 
coming out relatively soon. We will take comments on that 
proposed plan.
    The final plan, you know, our intent is to get it finished 
before the Administration's time ends here. So sometime around 
the end of the year you should see the final plan. But between 
the draft proposed plan and the proposed plan we've taken a 
tremendous amount of input including from industry. That will 
be reflected in this plan. And then the final plan will be 
sometime around the end of the year.
    The Chairman. Well, I appreciate that.
    So then when the final plan is released and we are able to 
take a look at it I would hope that you will be able to commit 
to coming back before the Committee to testify about what it 
includes, if we decide that we will hold an oversight hearing 
on it. But obviously we need to receive it from you first.
    Secretary Jewell. I'm very happy to respond to your 
Committee in whatever way you like.
    The Chairman. Okay. Good.
    Secretary Jewell. Thank you.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    I would like to go back to the self-bonding thing because 
you said something at the end of your testimony that I thought 
was important. Again, having experienced this myself where I 
mentioned Sarco left people high and dry in Tacoma. In that 
case I think we actually had to go through DOJ to make sure 
that we got the assets that we needed for the cleanup.
    BLM has ended the practice of, you were mentioning, you 
said it and it really rang with me, of corporate guarantees for 
hard rock mining, the BLM rule that it could not do corporate 
guarantees unless they were secured forums for financing 
guarantees.
    I think in 2003 CBO laid out the problem and said, ``Unlike 
surety bonds, corporate guarantees do not allow the regulator 
to lay claim to specific financial assets in the event that an 
operator becomes insolvent and cannot meet its Reclamation 
obligations.''
    My understanding is that we, with these coal companies that 
are facing bankruptcy, that there is something like $3 billion 
in liabilities. Is that a number that you or your team knows?
    Secretary Jewell. I haven't heard that number but we can 
check with the team and get back to you.
    Mike, have you heard anything?
    Mr. Connor. It sounds familiar, but we need to check the 
number.
    Secretary Jewell. We'll check.
    Senator Cantwell. Okay. It is a big number.
    I certainly would like a follow-up from you on what we plan 
to do to end this kind of self-bonding approach, because I just 
think it is putting too much at risk for the taxpayers. And you 
have taken similar steps in hard rock mining, so I think we 
should do the same thing here.
    Senator Cantwell. This is not about leaving us with the 
deep pockets. As I have said, I have had my own experience 
where we literally had to go to DOJ and get them in an 
agreement about a bankruptcy to protect and make sure the 
cleanup was going to move forward and happen.
    If I could, Mr. Connor, just one of the things that I keep 
becoming increasingly aware of is how much cooperation in our 
water agreements making traction. Do you think we should be 
doing more to incent from the Federal level this kind of 
integrated planning? I like the integrated planning because 
first of all, it is collaborative, and so it is more likely to 
succeed as opposed to lawsuits that take forever.
    Oftentimes the approach is integrated so you are not really 
choosing one over another. You are basically saying here are 
the ways in which we can have a holistic approach to try to 
solve our problems with water and drought. So do you think we 
should be doing more to incentivize that?
    Mr. Connor. Thanks for the question.
    Absolutely. I think the Yakima Integrated Plan, that 
process, is a model not just for working through watershed 
challenges, but for any natural resource management whether 
it's public land management issues. It's the right process to 
bring folks together in a holistic and realistic manner and 
decide on a path forward that addresses, in that particular 
situation, both water supply, environmental needs, tribal 
responsibilities, etcetera.
    The plan is realistic. It's expensive. And--but we are 
increasing our budget over time in just a three or 4 year 
period I think we have close to doubled the budget for Yakima 
enhancement activities. And we've put in additional resources 
in the 2016 spending plan with the additional resources that 
Congress wrote into Reclamation's budget to support that 
effort.
    So we're moving forward with the state, who has put in a 
lot of resources into this whole process to implement the plan. 
And I think from that standpoint the stakeholders see the 
progress being made and it incents them to do more. And so, 
after our basin studies program we continue to invest in those. 
We'd like to take that Yakima model to other basins.
    We've expanded in this budget our cooperative watershed 
program, doubled it to try and help fund local watershed groups 
that can build the relationships that can then enter into the 
planning process, the model.
    Senator Cantwell. So those funds could be used for that 
kind of integrated planning?
    Mr. Connor. For the planning aspect, absolutely.
    That's the goal, to help bring the different interests 
within a watershed together to help them start a planning 
process that we can take into basin studies or other means to 
develop a comprehensive approach. And then we can start to look 
at implementation strategies.
    Senator Cantwell. I wouldn't say that it is not a panacea. 
Your problems are not solved once you incent them, but I do 
think that everybody gets to the table and I think all the 
issues get on the table and then I think the management of the 
problem is based on science and facts and information. I think 
people buy into that process and then we get cooperation.
    It's got to be, obviously, more cost effective than the 
lawsuits that we are seeing which are getting us nowhere on 
trying to either recharge aquifers or save water or save fish.
    So anyway, I hope we can look at ways to continue to 
enhance the incentives to these various Western states and 
communities to work in a collaborative fashion on something 
that is integrated.
    So thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    We have a lot of work to do on some basic things, fire and 
water and others.
    I know that colleagues will have additional questions for 
the record. I certainly do.
    The Chairman. And I would just direct your attention, 
Secretary, to one specifically as it relates to earthquakes. As 
you had mentioned, just last week, I think, your earthquake 
initiative, and Alaska was not included as part of that. And it 
was, coincidentally, days after a 7.1 earthquake in South 
Central Alaska.
    We are about to get some earth scope seismographs that will 
help us in the state. This is through a grant through the NSF, 
and I think that is going to help us as we look to improve our 
seismic and just get better understanding. But NSF funding runs 
out in two years, so we are going to be in a situation where 
these monitors are then moved from the state. I am trying to 
figure out some kind of collaborative way that we can work to 
provide for a level of continuation. So I would like to visit 
with some of your folks about that as a possibility and a 
prospect. We are, maybe because we are one fifth the size of 
the country, but we are more active from a seismic perspective 
than other states out there. So enlisting your support in that 
would be helpful as well.
    Secretary Jewell. Can I just respond quickly?
    The Chairman. Madam Secretary, yes.
    Secretary Jewell. I completely agree. There's no question. 
I've visited Earthquake Park. I remember the earthquake in the 
60s very clearly because we could feel it in my home community 
of Seattle, that nine plus magnitude earthquake. And, as I 
think you know, I did ask the USGS in this earthquake early 
warning system that we were addressing, where is Alaska? So 
it's a pilot project. The prototype is about to come out. We 
would love to include Alaska. It needs appropriate sensors. So 
we're very much of like mind there.
    We'll be happy to work with the state. It's a prototype so 
if, you know, it may be a little less expensive to wait until 
it's to the next level, but whatever you need to do on the 
infrastructure. I know that's something that I support, the 
USGS supports, and we would welcome a joint effort to make that 
happen.
    The Chairman. Good. I will look forward to working with you 
on that, and we have got some volcanoes that we have got to 
monitor as well.
    Secretary Jewell. Yes.
    The Chairman. All kinds of fun challenges.
    With that, we thank you for the time that you have given 
the Committee and we look forward to working with you.
    Thank you.
    We stand adjourned.
    [Whereupon, at 12:25 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   [all]
</pre></body></html>
